                                                    SENSITIVE BUT UNCLASSIFIED
           [Type text]


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                             Inspection of
                                   Embassy Hanoi and Consulate General
                                       Ho Chi Minh City, Vietnam


                                          Report Number ISP-I-12-11A, February 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                               i
                                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instances of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




                              Table of Contents


Key Judgments                                                 1
Context                                                       3
Executive Direction                                           4
Policy and Program Implementation                             7
  Reporting and Analysis                                      7
  Public Diplomacy                                           11
  Consular Affairs                                           18
  Innovative Practice: Piecing It Together                   20
Resource Management                                          30
  Management Overview                                        31
  General Services                                           35
  Facility Management                                        37
  Human Resources                                            38
  Equal Employment Opportunity and Federal Women’s Program   41
  Financial Management                                       41
  Information Management                                     43
Quality of Life                                              46
Management Controls                                          49
List of Recommendations                                      52
List of Informal Recommendations                             57
Principal Officials                                          60
Abbreviations                                                61




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   The Ambassador in Hanoi, the consul general in Ho Chi Minh City, and their respective
     deputies, should be at the forefront of an effort to more effectively coordinate embassy
     and consulate general operations. Increasing and formalizing regular, planned working
     visits of American and local employees between the two posts are a necessary step.

 •   Embassy Hanoi’s reporting is generally comprehensive and of high quality, although
     staffing gaps and the loss of a position have adversely affected Hanoi’s output. Consulate
     General Ho Chi Minh City has not reported frequently enough or in sufficient detail on
     the official activities, meetings and policy views of the consul general.

 •   Embassy Hanoi and Consulate General Ho Chi Minh City have devoted much time and
     effort to resolving outstanding adoption cases from Bac Lieu province. Once these are
     resolved, the embassy must focus on its next steps as Vietnam deposits its ratification of
     the Hague Convention on Protection of Children and Cooperation in Respect of
     Intercountry Adoption.

 •   The Ambassador should ensure that the worldwide referral policy for nonimmigrant visas
     is strictly enforced at Consulate General Ho Chi Minh City. Consular managers need to
     improve efficiency in immigrant visa processing at Consulate General Ho Chi Minh City
     by instituting a number of operational and procedural changes.

 •   Embassy Hanoi provides an outstanding example of intramission and interagency
     cooperation and coordination with the public affairs section (PAS). Representatives from
     embassy and consulate general sections and from other U.S. Government agencies at post
     are actively engaged in interagency working groups to advance Mission Strategic and
     Resource Plan (MSRP) goals.

 •   Overall management operations at Embassy Hanoi and Consulate General
     Ho Chi Minh City are effective, although stronger cooperation and teamwork between
     the two are necessary.

 •   Securing long-term title to property in Hanoi for a new embassy compound remains a top
     mission goal. U.S. Government-controlled property in both Hanoi and Ho Chi Minh City
     should be retained until a new compound is acquired. In the interim, the embassy has
     successfully relieved some overcrowding at the dysfunctional chancery by moving
     offices from the chancery to commercial office space.

 •   The need for heightened involvement by embassy management in the mission’s
     management controls program is evident. Management control procedures at both
     Embassy Hanoi and Consulate General Ho Chi Minh City need to be carefully reviewed
     to ensure that employees at every level are fully aware of their responsibility for ensuring
     that controls are in place to protect assets and to avoid any perception of conflict of
     interest.

                                        1
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 7 and 27, 2011; in Hanoi,
Vietnam, between October 20 and November 2, 2011, and between November 19 and 21, 2011;
and in Ho Chi Minh City, Vietnam, between November 2 and 18, 2011. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        The U.S. relationship with Vietnam is growing in importance. Relations were normalized
in 1995, but it is only in the past few years that Vietnam has taken on real significance for U.S.
policymakers, as they have focused upon addressing China’s growing influence in Southeast
Asia. For its part, the Vietnamese leadership is walking a fine line between the United States and
China, as it seeks to expand its own role and influence. Both sides assert that the Vietnam War –
which the Vietnamese call the “American War” – has receded as a factor in the current
relationship, but traces of mutual suspicion still linger. As one of the few remaining avowedly
communist countries in the world, Vietnam is challenged to balance its economic liberalization
with continued political authoritarianism, areas where the United States is viewed as both role
model and threat. Building this partnership is a delicate, long-term process.

        According to the World Bank, Vietnam is the world’s most rapidly transforming
country, with one of the fastest rates of poverty reduction anywhere. U.S.-Vietnam trade has
increased 17-fold in the past decade, and both countries are active participants in the Trans-
Pacific Partnership process, negotiating a possible, multinational trade agreement. Vietnam’s
rapidly growing urban middle class is creating new markets for both goods and ideas. However,
the development of human rights, democratic governance, and civil society lags behind the pace
of economic reform. Vietnam’s leaders remain focused on ensuring domestic stability and
continuing single-party rule, and they have responded to the challenges of an increasingly wired
and informed population with increased media censorship and repression of dissidents. The
decisions that Vietnamese leaders take now and over the next few years will help determine
whether Vietnam remains wedded to a centrally controlled governmental model, or one that
evolves into a more open and pluralistic state.

        Beyond Vietnam’s obvious potential as an economic partner, there are important strategic
reasons to build a strong partnership with Vietnam. The United States shares with Hanoi an
interest in ensuring regional peace and stability, particularly in the South China Sea (which the
Vietnamese call the East Sea). Vietnam’s historically tense relationship with China presents
opportunities for further U.S. engagement, and Vietnam is looking to enhance its relationships
with other major powers. Bilateral defense and security cooperation between the United States
and Vietnam continue to mature, although a focus on internal security and an outdated “people’s
war” doctrine have hampered military modernization and limited the ability of Vietnamese
forces to cooperate in a bilateral or multilateral security environment. On the other hand, U.S.
programs to locate, remove, and destroy Vietnam War-era, unexploded ordinance and landmines,
which affect some 20 percent of Vietnam’s land mass, are well received.

        The Department of State (Department) is the largest agency in Mission Vietnam, followed
by the Department of Health and Human Services, the U.S. Agency for International
Development (USAID), and the Department of Defense. Vietnam was among the first countries in
which a President’s Emergency Program for AIDS Relief (PEPFAR) program was established to
help combat HIV/AIDS. Although funding for PEPFAR’s Vietnam program is being reduced, it
remains the largest program in Asia, with a budget of $69.8 million in FY 2012. Both the
Ambassador and deputy chief of mission (DCM) are newly arrived at post, and many other senior
positions in both the embassy and the consulate general turned over in summer 2011.
                                          3
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
         Embassy Hanoi has undergone a major turnover in personnel in recent months. At the
time of the inspection, the Ambassador had been at post for a little over 2 months and the DCM
about 3 months. The Ambassador is off to an excellent start, demonstrating leadership and
interpersonal engagement. Public diplomacy is high on his list of priorities, and his outreach
skills are outstanding. The strong interest of the Vietnamese public in American life, culture, and
education provides multiple opportunities for people-to-people contact. Before the Ambassador’s
arrival in Hanoi, he recorded a video of his preliminary thoughts and goals for his tenure in
Hanoi, some of it in Vietnamese, for a television interview. An estimated 20 million viewers
watched the interview. Another 6 million people viewed it after it was posted on the Internet.

        Under the Ambassador’s leadership, operations at the embassy are running smoothly. The
country team operates with cohesion and confidence. The DCM, who served in the economic
section in Hanoi a decade ago, also has taken charge quickly, and she has the Ambassador’s full
confidence. The DCM pays attention to the interests and concerns of entry-level officers, as do
the counselors who report to her. Her approach is direct and no-nonsense, and she has a mind for
detail.

         Staff morale among sections and agencies in Hanoi is high, notwithstanding the fact that
the chancery building is an inadequate, (b) (5) , and ramshackle structure. U.S.-Vietnam
discussions about a new embassy compound have been dragging on for several years. The
deliberations have been impeded by Vietnamese authorities’ unwillingness to grant a lease term
that is acceptable to the Bureau of Overseas Buildings Operations (OBO). In the meantime, post
management is striving to enhance the overall security posture in the chancery, as well as at two
outlying office buildings – both of which are far superior to the chancery in terms of layout and
efficiency.

        The Ambassador also has engaged decisively with the embassy’s sole constituent post:
the large and influential Consulate General Ho Chi Minh City (formerly Saigon). On his
introductory visit to Ho Chi Minh City, the Ambassador stressed to the American and
Vietnamese staff that, as Chief of Mission, he values the important role of the consulate general
and expects the embassy and consulate general staffs to function as “one mission, one team.” His
message was especially welcome in view of a number of legacy issues, including Ho Chi Minh
City’s continuing role as the economic and commercial hub of the entire country, the persistent
cultural and historical differences between Vietnam’s North and South, and the symbolic
significance that today’s consulate general is located on the site of the former embassy.

        Embassy Hanoi and Consulate General Ho Chi Minh City, until recently, have operated
more like two, separate missions than one, cohesive entity. The embassy has not provided, nor
has the consulate general sought, regular guidance as to how the two posts can best operate
together. With the arrival of new staff in summer 2011, both the embassy and the consulate
general have started thinking about ways to project a “one mission, one team” face to the
government and people of Vietnam and to the respective mission staffs. A necessary step to
improving the mission’s cohesiveness will be increasing and formalizing a process whereby


                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

American and local employees conduct working visits between the two posts, for consultations
and training.

Recommendation 1: Embassy Hanoi should implement a plan for American and local staff to
conduct regular, working visits between Embassy Hanoi and Consulate General
Ho Chi Minh City. (Action: Embassy Hanoi)

       In addition to the Department, agencies represented at Mission Vietnam include the
Foreign Agricultural Service, the Foreign Commercial Service, the Centers for Disease Control
and Prevention, and USAID. The Department of Homeland Security also has an office at
Consulate General Ho Chi Minh City.

     Mission leadership actively promotes Equal Employment Opportunity and Federal
Women’s programs and principles.

       The mission’s security programs are well managed and appropriately focused on the
country’s security threat ratings. The regional security office benefits greatly from the support
and continued interest of the Ambassador and DCM. Moderate deficiencies were noted in the
physical security and emergency preparedness programs, which are highlighted in the classified
annex to this report.

Consulate General Ho Chi Minh City

       Ho Chi Minh City is a complex environment that places heavy demands on the consulate
general staff and on the consul general personally. Located in a dynamic port city, the consulate
general serves a region that largely equates to the territory of the former South Vietnam. The
legacy of the “American War,” as many Vietnamese call it, is never far from the minds of those
who serve at this post.

         The consulate general staff, including all agencies, is nearly two-thirds as large as the
staff at Embassy Hanoi. In addition to its economic and political focus, the consulate general
handles all immigrant visas, except for adoptions, processed in Vietnam (Ho Chi Minh City
consistently ranks as one of the Department’s five busiest immigrant visa posts), as well as the
normal range of other consular services. Almost all of the American staff, including the deputy
principal officer, arrived only months before this inspection. The consul general is one of the few
holdovers, having arrived in summer 2010. In his first year at post, the consul general carried out
his duties with energy and commitment. In his second year, he needs to work more
systematically and transparently with his deputy and the entire team, to coordinate consulate
general operations with the embassy. As noted, both posts profess a philosophy of “one mission,
one team,” but the challenges of history and geography (the two cities are 800 miles apart)
dictate that this motto must be constantly tended, if it is to reflect reality. For example, Embassy
Hanoi’s MSRP goal for education emphasizes Vietnam’s need for higher education, but the
consul general sees a need to focus also on primary and secondary education, as well as
vocational training. However, the mission does not have the time, resources, and access to
address all these areas. (Access to high schools is granted only after passing through several
layers of local authorities.)

                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       (b) (5)



          Efforts in this area seem to be under way, but success will require hands-on
involvement by the recently arrived deputy principal officer, who is serving in that capacity
for the first time. Like any deputy, he is expected to function as the principal officer’s chief
operating officer and trusted confidant. However, while the current deputy principal officer
attended the DCM course on an ad hoc basis, it is not currently a requirement. The inspectors
believe that future incumbents, serving in this consulate general that is larger than some
embassies, would benefit from taking this course. The consul general has begun recently to
delegate major responsibilities to the deputy principal officer, which is a welcome
development that should be systematically expanded. The deputy needs to engage proactively
and at appropriate levels – inside the post, with Embassy Hanoi, and with Washington
agencies – while keeping the consul general informed.

        The consul general is fluent in Vietnamese and has a deep understanding of the host
country’s culture and norms. However, he only infrequently writes cables regarding his meetings
outside the consulate general. It is important that he include other officers in all meetings related
to political and economic affairs, human rights, the environment, energy, adoption concerns,
treatment of minorities, and other matters relevant to their respective portfolios. The expertise of
these officers should be called upon, even if it means relying on interpreters in some situations.
(The Vietnamese language is notoriously difficult; even language-qualified officers sometimes
require assistance from native speakers in unscripted situations.) The officers could act as note
takers, and write cables or provide other information coming out of these meetings. In a closely
controlled political environment such as Vietnam, no post official, including the consul general
himself, should meet with Vietnamese officials unaccompanied. As an added benefit, in a culture
that venerates seniority and status, including officers in meetings would enhance their ability to
develop contacts and follow up independently on important issues.

Recommendation 2: Embassy Hanoi should require that all meetings attended by Consulate
General Ho Chi Minh City staff and related in any way to official matters include a note taker.
(Action: Embassy Hanoi)

        Executive office operations also need attention. The consulate general staff is unclear
about the division of labor between the executive office’s office management specialist and the
locally employed protocol assistants. (b) (5)
                                          The deputy principal officer is responsible for defining
the responsibilities of front office employees and developing a workable division of labor. In
doing so, the deputy principal officer will need the express support of the consul general.

Recommendation 3: Embassy Hanoi should deconflict, separate, and clarify the work
requirement statements and position descriptions for all Consulate General Ho Chi Minh City
front office staff members. (Action: Embassy Hanoi)




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting and Analysis

       Mission Vietnam’s reporting is generally of good quality, comprehensive, and well
aligned with its MSRP goals. However, as in many missions, much useful material does not
make the leap from email to formal cables or the Department’s internal, online resources.

        The inspection team reviewed 6 months of reporting cables from both Embassy Hanoi
and Consulate General Ho Chi Minh City, a period which coincided with an extended gap in the
embassy’s front office, the loss of a reporting position in the embassy’s political section, several
high-level visits, and sustained activity on two major policy initiatives. Not surprisingly, the
embassy’s analytical reporting volume suffered, as many cables were related to visits or
responded to instructions or inquiries from Washington. The political and economic sections had
developed reporting plans that were yet to be shared with the newly arrived Ambassador. The
inspection team encouraged them to do so, in order to benefit from his perspective and
prioritization.

         The consulate general has produced some valuable and insightful reporting, but generally
there is far less reporting than would be expected of a post of its size. Material provided by a
consulate general often ends up in cables from the embassy, and there is a vibrant, informal
exchange between the respective political and economic sections. More telling, however, is the
lack of emphasis upon reporting by the consul general, who does not routinely report on his own
activities nor provide comprehensive readouts. For example, a single cable reported on his visits
to 6 provinces over the course of 7 months. This disinclination both eliminated a major source of
reporting, as compared to previous years, and undercut the ability of other officers to follow up
on his meetings. The inspection team counseled the consul general and his deputy to follow
standard reporting practices.

        Many overseas missions and their country directorates in Washington exchange end-of-
day emails containing operational information or late-breaking reporting. Distribution of these
emails is, by definition, limited. The information they contain should be included in front-
channel cables in the following days or supplemented by direct contact between Vietnam-based
action offices and the wider Department and Washington interagency community. Embassy
Hanoi and the Vietnam directorate have such an exchange (referred to in Mission Vietnam as the
official-informal), to which the consulate general provides input. In addition to contributing to
the official-informal, the consulate general produces a “Ho Chi Minh City Highlights” email and
an activity report to the Ambassador. While these are scheduled to be produced weekly, their
preparation is irregular; they are drafted by entry-level officers already pressed with their
consular duties, and appear not to be a management priority. Staff at both the embassy and the
consulate general conceded that items from the official-informal and other documents often do
not find their way to front-channel reporting. The inspection team made several suggestions to
the leadership to review and reform the full range of communication channels, to advance the
mission’s policy effectiveness.



                                           7
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Political Affairs

         The political section in Hanoi performs well in pursuing an active, bilateral agenda, but it
is unduly stretched. The counselor is enthusiastic and knowledgeable and actively mentors his
staff in a positive atmosphere. He is getting the most out of a section that lacks deep Foreign
Service experience (one mid-level officer, one entry-level officer, a Civil Service detailee, and an
eligible family member) but is well supported by a strong locally employed staff.

        The political section lost a position during the last assignment cycle, when one position
(number 10253135) was shifted from Hanoi to Ho Chi Minh City. This position originally was
intended to manage and staff an American Presence Post in Danang (Vietnam’s fourth largest
city), but the post was never funded. Both the previous and current incumbents devote less than
25 percent of their time to Danang, which could be covered from either the embassy or the
consulate general. The consulate general has devised expanded reporting activities for this newly
obtained position, but the embassy has had to cut back in important areas to compensate for its
loss. At the embassy’s urging, the Bureau of East Asian and Pacific Affairs (EAP) requested, and
in March 2011, the Bureau of Human Resources agreed to return this position to Hanoi. The
embassy raised this issue with the inspectors several times, as EAP never notified them of this
approval.

       In collaboration with the economic section, the political section keeps up-to-date
biographic files on an easily accessible, shared drive. The section purges old files and creates
new files regularly. The embassy also has adopted and is implementing a comprehensive
approach to managing its contacts database.

Economic Affairs

        The economic section in Hanoi has strong staffing and effectively pursues its trade,
export control, and microeconomic agenda. Its officers are enthusiastic and engaged, and
uniformly speak highly of the management styles of the counselor and her deputy. Reporting
cables are a good mix of spot reporting and analysis.

        The embassy has taken the unusual step of assigning the deputy economics counselor to
attend each round of the Trans-Pacific Partnership trade negotiations, in which both Vietnam and
the United States are participants; no other embassy has a representative at every round. This
responsibility takes her away from the post for considerable amounts of time, since rounds are
held throughout the Pacific Rim. Mission management believes this level of engagement (and
expenditure) pays off, by helping develop clearer insights into the state of the negotiations – a
benefit which is difficult to evaluate, particularly since few of these insights can be found in
front-channel cables. A series of cables analyzing the bases and limitations of Vietnamese
negotiating positions would be especially helpful to Washington readers, as the negotiations
enter what are hoped to be their final rounds in 2012.

Political-Military Affairs

       Political-military affairs are part of the portfolio of the mid-level political officer and are
covered adequately, given the state of the bilateral relationship. As defense cooperation and
                                                   8
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

military-to-military relations expand between the United States and Vietnam, additional
resources will be required.

Leahy Vetting

        A limited amount of U.S.-sponsored training is provided to Vietnamese security forces
and is subject to Leahy vetting. Leahy vetting is managed by the embassy’s political section,
with input from offices in both Hanoi and Ho Chi Minh City.

Environment, Science, Technology, and Health

        A robust section in Embassy Hanoi is responsible for reporting and analysis on science,
technology, health, and environmental issues. Two such issues have important visibility in the
bilateral relationship: the monitoring and remediation of dioxin contamination sites, caused by
the use of Agent Orange during the Vietnam War; and the Lower Mekong Initiative, a
multinational, four-pronged strategy to stimulate development and environmental awareness in
the Mekong River watershed. Headed by an FS-03 officer in his first such tour, the section also
has a newly arrived, entry-level officer and one local employee. Another entry-level officer in
Ho Chi Minh City also covers these issues as part of her economic portfolio, with the support of
a local employee. While she does not formally report to the Hanoi officer, he clears the consulate
general’s cables and coordinates with the consulate general on issues of common interest.

        Despite the importance of the issues and this considerable level of staffing, very little
activity is reflected in front-channel cables. Some cables have languished for weeks after the
event about which they were intended to report. It is unusual for an officer at this level to head a
section and directly report to the DCM (all other section heads are FS-01s or FS-02s). Greater
supervisory attention is required to ensure timely management of the issues and reporting. In
similar posts, that supervision is provided by the economic counselor.

Recommendation 4: Embassy Hanoi should fold the environment, science, technology, and
health section into the economic section. (Action: Embassy Hanoi)

Consulate General Ho Chi Minh City

        Consulate General Ho Chi Minh City has a political-economic section which is
informally but functionally integrated. The FS-02 economic and political officers co-manage the
section, which includes two additional officers (one political, one economic) and six local
employees (one position is currently vacant). They are also among the strongest speakers of
Vietnamese in the consulate general. The local employees have portfolios which, to a limited
extent, include both economic and political areas. They report to several different officers,
depending upon the subject matter. The co-managers are appropriately graded, collaborate well
with one another, and make the co-management approach work well. The arrangement is
sometimes confusing to other sections of the consulate general, however, and their successors
would be challenged to replicate their success. In addition, as noted above, the front office has
not been contributing to reporting, thereby depriving customers of an important dimension of the
consulate general’s activities.

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         Two approaches can be taken to address this situation. One would be a combined
political-economic section, headed formally by the deputy principal officer (an FS-01), with the
deputy to be designated as required from between the two FS-02s. The other approach would be
to split the combined section into independent, political and economic sections, each headed by
an FS-02 reporting to the deputy principal officer, and make related adjustments to the position
descriptions of the local employees. Either approach would clarify supervisory lines, as well as
emphasize the reporting responsibilities incumbent upon the front office. A further step to
enhance coordination and mentoring from the embassy, regardless of the approach taken, would
be to have the relevant embassy section head serve as the rating or reviewing officer for each FS-
02 officer, as is currently the practice with the public affairs, management, and regional security
officers at the consulate general.

Recommendation 5: Embassy Hanoi, in coordination with the Bureau of East Asian and Pacific
Affairs and the Bureau of Human Resources, should restructure the political-economic reporting
function at Consulate General Ho Chi Minh City, to clarify supervisory relationships and
reporting responsibilities. (Action: Embassy Hanoi, in coordination with EAP and DGHR)

Coordination

        The political and economic sections in Hanoi have weekly meetings for all staff,
including their local employees. These meetings are lively and elicit participation by all. The
combined section in Ho Chi Minh City takes a less formal approach, since the American and
local employees sit in close proximity to each other. In Hanoi, the Ambassador or DCM chairs
weekly or biweekly coordination meetings (economic, health, etc.) involving section heads and
other agencies. The consulate general has a weekly meeting for reporting officers and the front
office to discuss upcoming events and reporting projects.

        There is lively coordination, by email and telephone, between the sections in Hanoi and
Ho Chi Minh City, including between local employees. The consulate general routinely clears
cables from Hanoi with relevant embassy elements, but the embassy does not clear its cables
with the consulate general with similar regularity. With limited exceptions, that clearance
process works smoothly, but the status of cables should be a regular part of the dialogue between
the DCM and the deputy principal officer. In addition, many of the cables that come to the
embassy are also relevant to the Ho Chi Minh City reporting staff but are unavailable to them.
The inspection team suggested several possible solutions.

Outreach

         Political and economic officers in both Hanoi and Ho Chi Minh City engage in outreach
activities, some of their own devising and others arranged by the PAS. A relatively small number
of the officers are fluent in Vietnamese, so the majority of these engagements are conducted in
English. (See discussion of language designated position in the human resources section of this
report.)




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED


Representation

        Representation funding appears adequate, although allocations among sections for
FY 2011 were unusual. A misguided decision by embassy’s interim leadership to suspend all
representation activities pending the new Ambassador’s arrival skewed spending and undercut
the ability of officers to pursue their representational responsibilities. All political and economic
officers, as well as some local employees, made appropriate use of representation funds. In
Ho Chi Minh City, relatively large amounts were spent on items or activities not in line with
mission guidelines or which had limited connection to the pursuit of U.S. national interests,
including flowers for other countries’ national days. The inspection team counseled post
management in both cities on the cost-effective use of representation funds, and the embassy has
issued updated mission-wide guidance.

President’s Emergency Plan for AIDS Relief 1

        Vietnam is one of the 15 countries that received substantial HIV/AIDS related resources
in the early years of the PEPFAR program, even though the national HIV/AIDS prevalence rate
is well below the rates in other former PEPFAR focus countries. The epidemic in Vietnam is
concentrated among specific groups, including intravenous drug users and sex workers, with
prevalence rates ranging from 25 percent to 50 percent.

         PEPFAR funding for Vietnam peaked at $87.8 million in FY 2010 and is declining, but it
still accounts for the overwhelming majority of total U.S. aid to Vietnam. The out-year funding
picture is uncertain, and program managers are concerned that a precipitate decline in PEPFAR
funding might outpace the Vietnamese Government’s ability to assume responsibility. A senior
team from Washington was in Vietnam during the inspection team’s visit to review these issues.

        The Ambassador and DCM provide strong executive oversight and support of the
PEPFAR program, while leaving most day-to-day operations to the PEPFAR coordinator and the
PEPFAR team. USAID and the Centers for Disease Control implement the largest parts of the
bilateral PEPFAR assistance program, each accounting for almost half of the total annual
PEPFAR budget, with additional activities by units of the U.S. Navy and the Substance Abuse
and Mental Health Services Administration. The Department of Health and Human Services
withdrew its health attaché for budgetary reasons in 2010. The embassy turned to the Navy’s
Bureau of Medicine in 2010 to provide a health affairs attaché, who has been at post about a
year. Lacking either a public health background or international and interagency experience, the
incumbent has struggled to find a role, beyond providing an additional layer of coordination.

Public Diplomacy

       The Hanoi public affairs officer (PAO) manages a creative and well organized program.
Vietnam is a difficult program environment: the government requires advance permission to
conduct programs outside U.S. Government premises, controls the print and electronic media,
and sometimes limits access to Internet sites. Despite these problems, there is a great hunger in

1
    OIG conducted an extensive review of the PEPFAR program in Vietnam in 2010. See OIG Report No. ISP-I-11-07, - Review of PEPFAR at
     Select Embassies Overseas (December 2010).
                                                       11
                                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Vietnam for information and education. The embassy’s PAS has responded to these challenges
successfully with a targeted effort, and clear results. In the academic year 2010-2011, 14,800
students from Vietnam studied at U.S. colleges and universities – ranking Vietnam as 8th
worldwide in absolute numbers of students in the United States. In FY 2011, the PAS sent
more exchange grantees to the United States through the Voluntary Visitors program than any
other embassy. The American Center in Hanoi hosts approximately 3,000 visitors per month.
Consulate General Ho Chi Minh City formally opened its American Center in September 2011,
and already it has received about 800 visitors monthly.

Mission and Interagency Integration

        Embassy Hanoi provides an outstanding example of intramission and interagency
cooperation and coordination with the PAS. Embassy sections and representatives from other
U.S. agencies are actively engaged in interagency working groups to advance MSRP goals, such
as education, which is a policy priority; digital outreach; weekly press planning meetings;
exchange program grantee selection; small grants award evaluations; and participation in the
speaker programs. Representatives from Consulate General Ho Chi Minh City participate in
these working groups by speaker phone or digital video conference. When the PAS was awarded
extra end-of-year funds, the PAO sought input from other sections on how best to employ these
resources to support policy priorities. The Hanoi PAS designates a proportion of its program
funds for PAS Ho Chi Minh City, to use according to its MSRP needs. The Hanoi public
diplomacy section clears on all MSRP goal papers and provides input for the chief of mission
MSRP statement.

Management and Strategic Planning

Hanoi

        Located in a separate office building known as the Rose Garden annex, the embassy’s
PAS staff includes the PAO, cultural affairs officer, press officer, one public affairs assistant (an
eligible family member), and 21 local employees. The American Center/library is located in the
same building. The PAO has exhibited strong leadership by forging a senior management team
of American and local supervisors, providing strategic direction and empowering them to plan,
delegate, and manage their subordinates’ performance. He also has developed an online
leadership training curriculum, which he has taken himself. Each subsection has created a
combined program-travel-representation matrix that is linked to the budget plan and clearly
indicates MSRP goals. The section is appropriately staffed, and all position descriptions were
reviewed last year. The PAO is developing a system to measure program effectiveness through a
survey that will record qualitative shifts in audience attitudes.

        The section benefits from an experienced public affairs assistant, who prepares regular
program reports and Mission Activity Tracker entries; edits and reviews English language
material from local staff to be published in print or online; helps plan and execute programs; and
oversees day-to-day operations of the American Center. Because the regulations have been
unclear regarding performance evaluations for eligible family members, she only recently began
receiving timely, written evaluations. However, she has yet to receive regular performance
review counseling sessions.
                                                 12
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 1: Embassy Hanoi should require the public affairs
       assistant’s supervisor to conduct regular performance review counseling sessions and
       document at least one of those sessions on form DS 1974.

Consulate General Ho Chi Minh City

        The consulate general PAO and assistant PAO, both of whom arrived in summer 2011,
supervise 11 local employees. Their section is located in a bright, new space in an office building
that also houses the American Center library and is within walking distance of the consulate
general. An additional American officer is scheduled to arrive in June 2012. The
Ho Chi Minh City PAS has not focused its program on MSRP goals and does not coordinate
strategic planning with PAS Hanoi or use Hanoi’s well developed matrix system that integrates
program, travel, and representation events and is clearly linked to the budget plan and MSRP
goals.

Recommendation 6: Embassy Hanoi should institute joint public affairs strategic planning
sessions and staff exchanges with Consulate General Ho Chi Minh City, using the embassy’s
program-travel-representation matrix in pursuit of Mission Strategic Resource Plan goals.
(Action: Embassy Hanoi).

        The PAS in Ho Chi Minh City has undergone a number of recent changes. It moved into
a new facility in August 2010, converted the two Education USA employees from contractor to
local employee status, hired a new American Center director, and formally opened the center to
the public in September 2011. PAS Ho Chi Minh City subsections have not coordinated their
actions with each other, resulting in a less cohesive PAS.

Recommendation 7: Embassy Hanoi should reorganize Consulate General Ho Chi Minh City’s
public affairs section using Embassy Hanoi’s senior team leadership structure, and should train
section leaders on the embassy’s online leadership training curriculum. (Action: Embassy Hanoi)

Grants Management

        The embassy PAS and consulate general PAS manage a total of approximately 200 grants
per year. Most are small travel grants for exchange visitors or small program expenses. Since
both PAOs and the cultural affairs officer are the only Department officers with grants warrants,
the public affairs sections execute grants for other mission sections and for PEPFAR, although
those sections are responsible for managing their own, respective grants. The PAS local
employees in Hanoi and the local staff member in Ho Chi Minh City who oversee the records
have had the appropriate training. Both PAS offices carefully document all grant activity and
budget data. However, the files lack the formal designation letters. Also, the names of the grants
officer representatives are not listed on the proper form in the grants management database,
which is in violation of the Office of the Procurement Executive Grants Policy Directive 28.

Recommendation 8: Embassy Hanoi should enter the name of each grants officer representative
in the grants management database and supply each grants officer representative with the required
letter outlining the specific responsibilities for managing grants. (Action: Embassy Hanoi)
                                                   13
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Management of Education and Exchange Programs

        Education is a mission priority and a means to attain MSRP goals, especially as Vietnam
becomes more integrated into the world economy, increases respect for human rights and rule of
law, improves its health system, and maintains sustainable development. The public affairs
sections have spearheaded the effort to engage the Government of Vietnam in reforming its higher
education system and increasing the employability of its graduates. For the past 4 years, PAS has
partnered with USAID and Vietnamese Government offices and institutions to organize annual
education policy conferences that have generated education reform initiatives. This year, the
mission’s education working group formed bilateral education advisory groups with the host
government to further drive education policy reform. This working group is a model of
interagency cooperation. The Department sections and other agencies in Hanoi and
Ho Chi Minh City coordinate educational programs, leverage efforts, and strategize on engaging
the Vietnamese Government in educational reform.

       The Fulbright program, managed by PAS without a Fulbright Commission, is integral to
the mission’s educational reform strategy. It has a well coordinated mix of American and
Vietnamese scholars, researchers, and graduate students, supplemented with other, smaller
educational exchanges. The Fulbright English Teaching Assistant programs, in which young
American university graduates teach English at provincial educational institutions, help
communicate American culture and values within Vietnam’s atmosphere of limited academic
freedom. Funding from the Bureau of Educational and Cultural Affairs directly supports the
Fulbright Economics Training Program, a long-standing partnership with Harvard University’s
Kennedy School of Government and the Ho Chi Minh City University of Economics to train
mid-career professionals in public policy and economic analysis.

       The DCM chairs the mission’s International Visitor Leadership Program selection
committee. All program visits are tied to MSRP goals. All Hanoi and Ho Chi Minh City sections
and agencies are invited to nominate candidates, and the final, mission-wide selection committee
meets via digital video conference. Both public affairs sections make extraordinary use of the
Department’s Voluntary Visitor program, sponsoring 80 participants last year and seeking
mission-wide input on how to maximize the use of extra funds and leverage resources with the
host government and local institutions.

        With Vietnam’s increased demand for access to information about the United States and
the world, along with an intense interest for study in the United States, comes a desire to learn
English. Both public affairs sections use a multitiered approach to supporting English instruction
by “training the trainers” with English language fellows and specialists; Fulbright English
teaching assistants; English Access microscholarships; and online teacher training. While PAS
Hanoi has a cultural affairs officer and five local employees managing the embassy’s educational
and cultural programs, PAS Ho Chi Minh City has only two local employees to cover the
consulate general’s portfolio. Given the importance of English language programs, the arrival of
a third American officer in Ho Chi Minh City in summer 2012 should provide an opportunity to
assess whether the consulate general PAS needs an additional local employee to help oversee the
English language training programs.

                                         14
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: Embassy Hanoi should use the arrival of the third public
       affairs officer in Consulate General Ho Chi Minh City as an opportunity to assess
       whether an additional local employee is needed in the consulate general’s public affairs
       section.

Media Relations, Reporting and Social Media

        The PAS in Hanoi crafted a multiphase media strategy to introduce the newly arrived
Ambassador to Vietnamese audiences. While still in Washington, the Ambassador conducted a
television interview that was shown on Vietnamese TV after his arrival. An estimated 20 million
viewers watched the interview. Another 6 million people viewed it after it was posted on the
Internet. Given the restrictive media environment, there is surprisingly great interest in
information about the United States. There are 17,000 registered journalists and 2 million
bloggers in Vietnam; many Vietnamese receive their news online, where information is not as
regularly controlled. Recognizing their influence, PAS monitors blogs daily and has included a
weekly blog highlights as part of its media reporting. The EAP press office has called the daily
reports, which include input from the consulate general, “excellent.” The section also has
produced a number of well researched, analytical cables on Internet freedom, educational reform,
the media landscape, and the state of English language teaching in Vietnam.

        For the first time in several years, the section is participating in two different “TV Co-op”
projects, in which television documentary crews from the host country travel to the United States
to produce a series of programs on a particular theme. The documentary crews and embassy
agree in advance that the programs will be broadcast on partner channels in Vietnam (with some
excerpts on social media platforms). With full funding and logistical support from the
Department, these two, separate projects will produce documentary reports on vital MSRP
topics, including Asia Pacific Economic Cooperation, U.S.-Vietnam trade relations, and
environmental conservation efforts in the Mississippi Delta, with lessons and implications for the
sustainable development of Vietnam’s Mekong Delta.

        The Hanoi PAS maintains the embassy’s Internet site in English and Vietnamese, which
is updated daily with links to local sites to other U.S. agencies and embassy-related sites. The
section also maintains an interactive, Vietnamese-language Facebook page, with 7,600 regular
fans.

       The consulate general’s Internet site, however, is out-of-date. The OIG team urged the
PAS to make the Web site more engaging, assess the staff’s technical skills, offer more training
as needed, and consult closely with the PAS Hanoi webmaster. The section also should highlight
the Web site’s link to the American Center’s new Facebook page.

       Informal Recommendation 3: Embassy Hanoi should update Consulate General
       Ho Chi Minh City’s English and Vietnamese Web sites, evaluate the technical skills of
       the consulate general’s public affairs staff, and provide appropriate training in Web site
       development and maintenance.



                                          15
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Media Connectivity

        Many Bureau of International Information Programs resources are available only through
OpenNet. However, because the American Center is open to the general public, the local
employees who work there must go to other offices to access their OpenNet accounts. This
arrangement impedes productivity. Constructing a private workspace would be one solution, but
the section must evaluate the cost and benefit of doing so.

        Informal Recommendation 4: Embassy Hanoi should conduct a cost-benefit analysis
        regarding the viability of constructing private office space in which American Center
        employees can securely access their OpenNet accounts.

        For security reasons, there is no wireless Internet access at the embassy’s American
Center, which limits the usefulness of the its new iPads. The OIG team discussed this situation
with the embassy’s information management (IM) section, but due to the technical complexity of
the issues, no decisions had been made by the end of the inspection. It is important that the
mission continue to research ways to resolve these issues and still comply with Department
regulations in 5 FAM 790-792.

Recommendation 9: Embassy Hanoi should explore the feasibility of establishing wireless
Internet access or otherwise maximizing the usability of the Hanoi American Center’s iPads.
(Action: Embassy Hanoi)

Speaker Programs

        Supplementing its modest allotment of U.S-based speakers, the embassy PAS and
consulate general PAS manage a strong program of local speakers, including mission personnel,
visiting U.S. Government officials, Fulbright grantees, English teaching assistants, and exchange
program alumni. This year, the Hanoi section initiated a five-part series on “The American Way
of Doing Business,” with speakers from embassy sections and agencies. For example, on a
Saturday morning in October, an economic officer spoke to an audience of over 100 students and
guests on: “What International Property Rights Mean to You.” The Ho Chi Minh City American
Center, which formally opened in October 2011, already conducts an active and varied mission
speakers program. Despite Vietnam’s complex, bureaucratic requirements, both PAS offices are
making a successful effort to reach audiences in provincial institutions outside the two major
cities.

American Centers and American Corners

Hanoi

        Located in an embassy annex, the Hanoi American Center is open 6 days a week and
receives over 3,000 visitors monthly from the target audience of students and young
professionals. Many local educational institutions bring students for lecture programs on such
topics as “American Business Etiquette,” followed by an introduction to the Center’s facilities
and the Education USA student advising office. Managing an active lending library of books and
DVDs, the center also offers computers with Internet access, in addition to several new iPads. To
                                                16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

meet the increased audience demand, the center expanded its 4-member local staff’s reach by
using local, unpaid student interns to assist with film showings, club meetings, speaker program
logistics, English conversation sessions, and library collections maintenance.

        The American Corner at Haiphong University, however, has long been problematic.
Located in Vietnam’s third largest city, the facility has suffered from the university’s
inconsistent management and refusal to open programs to outside audiences. The embassy has
rightly decided to cuts its losses and is currently investigating other Haiphong institutions as
possible American Corner partners.

Consulate General Ho Chi Minh City

        The recently opened Ho Chi Minh City American Center is already attracting near-capacity
audiences for its speaker programs. The library is full of students, and the center is already
planning to expand its hours and institute a student intern program. The center’s energetic, new
director is eager to explore new outreach methods, but the Ho Chi Minh City staff could benefit
from increased communication and exchange with the more experienced American Center staff in
Hanoi.

       Informal Recommendation 5: Embassy Hanoi should increase communication and staff
       exchanges between the American Centers in Hanoi and Ho Chi Minh City.

        The PAS in Ho Chi Minh City manages a very active American Corner at Danang
University, which has completed seven programs so far this year. This accomplishment is
especially commendable, because it takes a great deal of planning and work to arrange for the
speakers and program content. The section first must gain the required approval from several
layers of government and institutional authorities, and then submit any handout materials
(translated into Vietnamese) for prior approval. Local authorities do not allow the American
Corner to advertise, so PAS sends invitations by mail and email. The section staff has very good
relations with the American Corner director, who is very interested in maintaining a steady
stream of contact.

Educational Advising

        The Education USA program in Vietnam also is a success story. There is a huge desire
for information about American colleges and universities, as Vietnamese families become more
affluent and place great importance on U.S. higher education. The number of Vietnamese
students studying in the United States has tripled in the past 3 years, reaching 14,800 in 2011. As
noted above, Vietnam now ranks 8th in absolute numbers of students in the United States. In
trying to meet this demand, the capable Education USA team has partnered with consular
officers to conduct frequent outreach visits to schools and student/parent groups throughout
Vietnam. They also coordinate with the Foreign Commercial Service’s marketing activities for
U.S higher education institutions. The PAS works with USAID on its education partnerships
targeted in engineering and high tech fields, as well.

       The Ho Chi Minh City PAS has no dedicated space in which to conduct individual
consultations and store materials. Since entry to the controlled space requires 24-hour advance
                                                 17
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

notice, it is difficult to accommodate same-day appointments or drop-in requests. Individual
sessions with students and parents often cover sensitive topics, such as family finances and
student grades, and require a quiet space that provides some privacy. The OIG inspectors
discussed reconfiguring the office layout to use an underutilized space for this purpose.

Recommendation 10: Embassy Hanoi should convert space outside the hardline at the
Ho Chi Minh City American Center into an enclosed area for use by the Education USA staff
when counseling visitors. (Action: Embassy Hanoi)

Alumni Programs

        Vietnamese alumni of U.S. exchange programs are essential players in the public affairs
outreach programs, although they are not permitted by the Government of Vietnam to register as
an alumni organization. Operating outside the restrictions placed on American speakers, these
alumni can more easily engage with wider audiences as credible, informed communicators about
their American experience. A local employee in the Hanoi PAS serves as alumni coordinator
assistant, with responsibility for the entire country. This position is currently funded by the
Bureau of Educational and Cultural Affairs, but that funding is due to expire in FY 2013. The
OIG team supports the mission’s request to fund this position, as a priority in its MSRP.

Consular Affairs

        The consular section in Hanoi is an efficient operation, with strong leadership, capable
employees, and high morale. Although small in size, it has dealt with complicated issues over the
past few years, including the termination of adoptions from Vietnam in 2008 and the resolution
of most adoption cases that were in the pipeline. At the time of the inspection, 16 cases from Bac
Lieu Province were pending. Department employees in both the embassy and in Washington had
spent enormous amounts of time on these cases, which had generated much press and
congressional interest. The consular chief estimates that she spends 60 percent of her time on
issues related to the Bac Lieu cases.

        Vietnam signed the Hague Convention on Protection of Children and Co-operation in
Respect of Intercountry Adoption in December 2010, and deposited its ratification during this
inspection. The consular section is monitoring Vietnam’s new adoption law and its implementing
decree and circular. The mission is preparing to resume adoptions once again, but under Hague
Convention procedures the process will be new, both for the section and for the Government of
Vietnam. The embassy and Department must balance public demand for quick implementation
with legal requirements, to ensure that Vietnamese implementation complies with U.S. and
Hague Convention requirements. The embassy’s executive office is fully supportive of and
engaged in this and other consular issues. The consular chief has frequent contact with both the
Ambassador and the DCM.

         Workload in the consular section is growing steadily. The embassy was planning to begin
a construction project shortly after the inspection to add consular work space and windows. The
only immigrant visa applications Embassy Hanoi processes are for adoptions; the remaining
applications are processed at Consulate General Ho Chi Minh City. The consulate general plans
to institute a drop box system for nonimmigrant visa renewals in its consular district. Embassy
                                                  18
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Hanoi now handles renewals for the entire country, so the drop box program likely will lead to a
decrease in Hanoi’s visa workload. Passport services increased 23 percent from FY 2009 to
FY 2010, and 10 percent from FY 2010 to FY 2011. Nonimmigrant visa adjudications increased
42 percent and 16 percent during the same periods. The mission has seen a 106 percent increase
in the number of U.S. citizen tourists to Vietnam between 2000 and 2011. Fortunately, staffing
has also grown.

        The section currently has three officers, but is scheduled to have five by fall 2012. The
local staff numbers nine, and an additional position has been tentatively approved. One full-time
and one part-time eligible family member assist. Because workload varies greatly by season, the
section hires temporary employees to assist during the summer. Once the two new officers (one
of whom is an FS-02 adoptions officer) arrive, the section will be well staffed. An FS-02 level
officer may be needed to implement the new adoption procedures, but this position might more
appropriately be an FS-03 level position in the future. Whether five officers are needed will
depend on whether workload continues to increase and whether adoptions resume – and, if so, at
what volume.

Recommendation 11: The Bureau of Consular Affairs should monitor Embassy Hanoi’s
consular workload to determine whether five officers, including an FS-02 adoptions officer, are
necessary. (Action: CA)

American Citizens Services

         As noted above, U.S. citizens are traveling to Vietnam at a rapidly growing pace. The
United States ranks fourth in the number of visitors to Vietnam, after China, Korea, and Japan. It
is difficult to provide services to U.S. citizens, given Vietnam’s bureaucratic requirements, but
the consular section works hard to overcome difficulties and to relay U.S. concerns to
Government of Vietnam officials. The Government of Vietnam is generally slow to notify the
embassy about arrests or to grant access to U.S. citizen prisoners, and it requires diplomatic notes
to schedule prison visits. It also does not permit visits without a Vietnamese official being
present and insists that all verbal exchanges take place in Vietnamese. The embassy continues to
raise these issues with local officials, but to date there has been virtually no change in policy.

        The American citizens services unit began offering appointments in August 2011. This
arrangement permits officers and local staff to concentrate on visa work in the morning; it also
allows for better control of the American citizens services workload. At the time of the
inspection, the unit still was permitting nonemergency, walk-in cases, but it has conducted
extensive outreach urging Americans to use the appointment system. The unit plans to require
appointments for nonemergency work, which is consistent with Department guidelines. Few
passport applicants take advantage of the courier pass-back procedures that the nonimmigrant
visa unit requires. The inspectors urged the unit to consider wider implementation of this option
for passport applicants.

Nonimmigrant Visas

      The unit has an attractive waiting area with sufficient seats and an adequate number of
windows for processing. Most applicants are processed quickly, and passports with visas are
                                               19
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

returned via courier. The embassy instituted a courier renewal program in 2010, which includes
renewals for the entire country. This program accounts for 17 percent of the mission’s
nonimmigrant visa workload. Hanoi’s referral policy complies with Department guidelines, and
the consular chief monitors it carefully. The mission had been setting aside some appointment
slots for use by the PAS, but it corrected this practice after the inspectors noted that these cases
should be handled through the referral system. The unit hosts a monthly Web chat for visa
applicants, which is a useful outreach tool. Most applicants for visitor visas receive multiple-
entry, 12-month visas. Vietnam does not provide reciprocal treatment to U.S. citizens. It is
unusual for U.S. citizens to receive visas for more than 3 months or for more than a single entry.

Recommendation 12: Embassy Hanoi should ask the Bureau of Consular Affairs to update the
reciprocity table for Vietnam, to reflect a maximum 3-month, single-entry validity for B1/B2
visas. (Action: Embassy Hanoi)

Fraud Prevention Unit and Visas Viper Program

        One local employee and the entry-level officer work part-time on fraud and coordinate
closely with the fraud prevention unit in the consulate general. Although Hanoi is a high-fraud
post, much of it is readily detected. The fraud prevention unit also assists the consulate general
with investigations of immigrant visa cases.
       The embassy has held regular Visas Viper meetings, with appropriate attendance, and
provides timely reports to the Department.

Innovative Practice: Piecing It Together

Innovative Practice: Piecing It Together – Improving Understanding of Missionwide Activities
Issue: First-tour officers must absorb a great deal of information, not just about the section in
which they work, but also about other sections and how the mission functions as a whole. Often
understanding the bigger picture is neglected because of the demands of working in a particular
section or a particular unit.
Response: Consular managers at Embassy Hanoi created a list of 100 items that entry-level
officers should complete during their first tour. The tasks include consular-specific items, such as
obtaining briefings on how to handle the appointment schedule; adjudicating 100-plus visas in
one day; learning how to complete a validation study; and processing a consular report of birth
abroad. General items include meeting with the regional security officer for coffee; meeting with
consuls from three other countries; reading the MSRP; and having lunch with two officers who
have served consular tours to learn about their experiences.
The entry-level officer receives five pieces of a 500-piece puzzle for every item completed; the
puzzle is displayed in the consular section and other people in the section can help the employee
fill in the puzzle as he or she obtains pieces.

Result: Training becomes a fun exercise, with a visible result as the officer completes various
tasks and fills in the puzzle. Others in the section become more involved in the training exercise
as they assist the officer.

                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Consulate General Ho Chi Minh City

      The consulate general’s immigrant visa workload consistently ranks as one of the
Department’s five busiest immigrant visa posts. (b) (5)
                                                                                          One
source of concern among entry-level officers involves transparency and their uncertainty about
the rotation and portfolio assignments. To address these concerns, the section managers modified
the rotation/portfolio assignment process and schedules.

        The consular section chief arrived shortly before the OIG inspection. Officers have
welcomed his friendly, open manner and the depth of knowledge he brings to the job. In an effort
to provide consular officers with as much information as possible about the work of other
sections, during the weekly consular staff meeting he provides information about the section
heads meeting. The deputy principal officer also participates in the consular meeting to
emphasize the importance of the section and to provide other details on mission-wide activities.

        The consular chief also serves as consular coordinator for Mission Vietnam. He has
traveled to Hanoi once already and plans to travel as necessary, but at least quarterly, for
consultations with the Hanoi consular staff, executive office, and Vietnamese consular officials.
Because he is responsible for consular operations throughout the country, he should play a
supervisory role in the consular section in Hanoi. Currently the DCM rates and the Ambassador
reviews the consular section head in Hanoi. Changing work requirements so the consular
coordinator is the rating officer would allow for a more unified consular operation in the country;
it also would ensure that the current strong cooperation between the sections is institutionalized,
and not dependent on personalities.

Recommendation 13: Embassy Hanoi should revise work requirements so the consular section
chief in Hanoi is rated by the consular coordinator and reviewed by the deputy chief of mission.
(Action: Embassy Hanoi)

        In addition to being the consular coordinator, the consular chief supervises 5 mid-level
officers, 14 entry-level officers, 61 local employees, and 2 eligible family members. This large
consular section deals with widespread fraud and faces difficult issues with the host government.
Preliminary statistics for FY 2011 indicate an overall workload of 52,000 immigrant visa
adjudications; 63,000 nonimmigrant visa adjudications; and 5,500 special citizens services cases.
Given the volume and complexity of the work, the position should be reviewed to determine
whether it should be upgraded from FS-01 to FE-OC.

Recommendation 14: Embassy Hanoi, in coordination with the Bureau of Consular Affairs and
the Bureau of Human Resources, should request a review of the consular chief position at
Consulate General Ho Chi Minh City to determine whether the position should be upgraded.
(Action: Embassy Hanoi, in coordination with CA and DGHR)

       The consular section was redesigned in 2011. The work area now is sufficient and open,
with good line-of-sight for supervision. Since the only access to other areas of the building is
through the consular section, the waiting areas for visa applicants are outdoors, where the seating
                                                 21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

is adequate and covered. The American citizens services waiting area is indoors, and all
Americans are given combinations to enter the consular section. OBO plans to update existing
windows and add more windows in May 2012. Doing so will require some reconfiguration of the
current office space. According to 7 FAH-1 H-282 (9), when evaluating consular space and
design, a mission should consider control of access to the consular section by other parts of the
post.

Recommendation 15: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Hanoi, should review construction plans to determine whether access to the consular
section in Consulate General Ho Chi Minh City could be better controlled by modifying the
current structure, and include such modifications in the scope of work for the approved
rehabilitation of the consular section. (Action: OBO, in coordination with Embassy Hanoi)

       Shortly before the inspection, a visiting Diplomatic Security team determined that,
pending additional construction, local staff could no longer retrieve files from the immigrant visa
storage facility without the presence of a cleared American employee.(b) (5)

                             The inspectors suggested hiring an eligible family member to perform
this duty until the construction is completed.

American Citizens Services

        The unit emphasizes customer services to its clientele. It is open to the public for 3 hours
every day, and accepts emergency cases at any time. Workload is increasing in this unit: consular
reports of birth abroad increased 20 percent in FY 2011, and the passport workload increased
almost 6 percent. The unit is staffed with a mid-level supervisor, an entry-level officer, and five
local employees. Local employees from the nonimmigrant visa unit assist during nonpeak
seasons and are thereby cross-trained, so they can provide backup as needed. The unit currently
provides appointments for passport and consular report of birth abroad applications, but not for
notarial services. Because of changes in intake procedures as a result of the OIG inspection, the
mission plans to institute an appointment system for these services.

       Consulate General Ho Chi Minh City does not currently have a warden system, as
required by 7 FAM 070 and 12 FAH-1, which leaves a gap in its ability to maintain contact with
American citizens in emergency situations. The consulate general has only informal contact with
Americans living in several provinces.

Recommendation 16: Embassy Hanoi should establish a warden system for Consulate General
Ho Chi Minh City. (Action: Embassy Hanoi)

Nonimmigrant Visas

        The nonimmigrant visa work flow is efficient, and most applicants are in and out quickly.
The unit is led by a mid-level officer. At the time of the inspection, the unit was staffed by 4
entry-level officers and 16 local employees. Nonimmigrant visas officers and local staff help out
frequently in other sections when they are able to do so, during the nonpeak season. The
inspectors encouraged counselor managers to consider assigning nonimmigrant visa personnel to
                                                  22
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

the immigrant visa unit during these periods. Workload remained steady in FY 2010 and FY
2011, but the consulate general plans to institute a drop-box system for renewal cases, as a
convenience for applicants in Ho Chi Minh City. This change could lead to an increase in
workload, as the embassy currently handles many of these cases. The unit permits applicants to
enter the facility whenever they arrive, without regard to appointment times, which leads to
overcrowding in the waiting room.

       Informal Recommendation 6: Embassy Hanoi should implement and enforce a policy
       that nonimmigrant visa applicants be admitted only at the time of their appointment at
       Consulate General Ho Chi Minh City.

        The consulate general executive office, including both American and local staff,
frequently contact the consular section to pass on information about specific visa applicants. For
instance, they might ask the section to review a case; tell why they believe an applicant is
qualified; or ask the consular chief or another manager to conduct a second interview. These
practices violate the Department’s worldwide referral policy, which mandates that no
information on specific cases be passed to the section outside of formal referrals. It is appropriate
for the executive office to forward relevant correspondence to the consular section, but it should
not ask for special treatment of visa applicants or advocate on their behalf outside the referral
system. Shortly before this inspection, the deputy principal officer told local staff to stop sending
cases directly to the consular section.

        There are several issues regarding the way the referral system is handled at the consulate
general. Not all referrals indicate how that referral directly supports U.S. national interests; they
also do not specify the nature and degree of contact the person making the referral has had with
the applicant, as is required by 9 FAM Appendix K.

         The inspectors counseled the consul general and the deputy principal officer on the
Department’s referral policy. They suggested having cards printed, explaining that visa
eligibility is determined by strict legal requirements and that the consulate general’s leaders
cannot influence the decision. This card, which could be given to anyone inquiring about visas,
also could refer applicants to the consulate general’s Web site for additional information. The
consul general accepted this suggestion.

Recommendation 17: Embassy Hanoi should not allow mission employees to use any method
other than Class A and Class B referrals to provide information on nonimmigrant visa applicants.
(Action: Embassy Hanoi)

        The consular chief instituted a policy for all sections in Ho Chi Minh City to forward all
visa-related correspondence to the consular section, which will handle it directly. However, there
is no electronic mailbox in which to collect this information.

       Informal Recommendation 7: Embassy Hanoi should set up an email box at the
       consular correspondence unit in Consulate General Ho Chi Minh City for consulate
       general personnel to use for all visa-related correspondence.


                                           23
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The mission’s referral policy is out-of-date. As stated above, the referral practices
conflict with Department policy on what constitutes a legitimate referral. The consular officers at
the consulate general have not been trained on the Department’s policy. Because compliance has
been an issue, it will be important for the Ambassador to review a monthly report on all referral
cases, including information on any email or other contacts that circumvent the policy.

Recommendation 18: Embassy Hanoi should reissue its visa referral policy, under the
Ambassador’s signature, and provide training for all staff at Consulate General
Ho Chi Minh City on the requirements and process for making visa referrals. (Action: Embassy
Hanoi)

Recommendation 19: Embassy Hanoi should require the consular coordinator at Consulate
General Ho Chi Minh City to give the Ambassador a monthly report on all Class A and B
referrals in both Hanoi and Ho Chi Minh City, indicating who made the referral and including
information on any instances of visa-related information being relayed outside the referral
system. (Action: Embassy Hanoi)

        The Bureau of Consular Affairs has stated that posts must make expedited appointments
available for a limited group of applicants, such as those who must travel for a medical
emergency. In October 2010, the consulate general amended its internal policy regarding
expedited appointments to add inappropriate categories – including a category for cases of special
interest generated by the executive office and a category for immediate family members of local
employees. When the OIG team raised this issue, the consulate general stopped expediting
appointments requested by staff, and also posted information online regarding who may request
an expedited appointment. Officers seeking expedited appointments now will request them
through a Class B referral, provided the applicant meets the criteria defined in
9 FAM Appendix K.

Immigrant Visas

        The consulate general’s immigrant visas section is led by a unit chief (who is also the
deputy consular chief) and a deputy unit chief. At the time of the inspection, 6 entry-level
officers and 25 local employees worked in the unit. The local employees are divided into six
teams. Each team is responsible for various tasks, which are rotated from one team to another on
a monthly basis.

        The consulate general consistently ranks among the top five posts worldwide in terms of
immigrant visa workload. In FY 2010, it was fifth in total applicants, but second in
adjudications. These statistics are an indication of the large number of applicants (between 50
and 60 percent of all applicants) who are refused under Section 221(g) of the Immigration and
Nationality Act, because they lack required documents or proof of entitlement to an immigrant
visa. In FY 2011, preliminary statistics indicate that Consulate General Ho Chi Minh City still
ranks fifth in total applicants, but it has dropped to fifth in total adjudications. The change
indicates that the unit is making progress toward its continuing goal of reducing the Section
221(g) refusal rate. In FY 2011, total applicants and total adjudications dropped by 16 percent
and 13 percent, respectively, as a result of a retrogression of visa numbers available. (Visa

                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

retrogression occurs when more people apply for a visa in a particular category or country than
there are visas available for that month.)

       The consulate general has a high level of fraud, particularly marriage fraud, which makes
the work difficult. Even though the workload dropped overall, the number of hard-to-adjudicate
marriage cases increased. In July 2010, the consulate general completed a project to review a
backlog of approximately 1,400 Section 221(g) refusal cases that had not been reviewed because
of workload.

         The unit does not enforce appointment times. For instance, an applicant with a 10:00 a.m.
appointment may be seen before an applicant with an 8:00 a.m. appointment. This arrangement
is inefficient and can cause significant delays; some applicants wait up to 4 hours for an
interview.

       Informal Recommendation 8: Embassy Hanoi should implement and enforce a policy
       that immigrant visa applicants be admitted only at the time of their appointment at
       Consulate General Ho Chi Minh City.

         Appointments are scheduled in the morning, and applicants who are refused under
Section 221(g) are told to come back on a specific afternoon, normally 3 weeks later. As a result,
officers often spend all day interviewing at the window (seeing first-time applicants in the
morning and those who have been refused in the afternoon), leaving little time for other tasks.
Managers try to schedule 2 days per month for training and other duties, and individual officers
set some time aside for “off-line” mornings. However, officers frequently are unable to do other
tasks during an “off-line” morning, because they are asked to fill in for interviewing officers who
may be on leave. Similarly, the in-service days are usually taken up with other activities.
Consular managers agreed that providing one day a week without appointments would give
officers a chance to pursue training or handle other tasks, such as completing advisory opinion
requests and drafting petition return memoranda.

       Informal Recommendation 9: Embassy Hanoi should revise the immigrant visa
       interview schedule at Consulate General Ho Chi Minh City, from 5 days per week to
       4 days per week.

         The consulate general’s Web site contains information about required visa documents,
but it is confusing and not well presented. Also, the National Visa Center does not link to post’s
Web site. The consulate general’s Web site does not emphasize the importance of having all
documents available for the interview. It would be helpful to make key information clear and
prominently visible, for example, by using a checklist of required documents. The inspectors
encouraged the unit to work with the PAS on ways to make additional information available to
immigrant visa applicants, to better prepare applicants and reduce the Section 221(g) refusal rate.
The change in schedule noted above will permit officers to engage in such outreach activities.

       Informal Recommendation 10: Embassy Hanoi should improve the Consulate General
       Ho Chi Minh City Web site, ask the National Visa Center to link to the Web site, and
       pursue other outreach opportunities to educate the public about the immigrant visa
       application process.
                                               25
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



        Officers have somewhat differing views on which immigrant visa cases should be
approved immediately and which should be returned to the Department of Homeland Security
for revocation. Since the Department of Homeland Security approves all petitions before they are
sent to a post for issuance, only it can revoke a petition. The mission has made efforts to hold
adjudication meetings, but these meetings often are held during lunch, due to time constraints.
The overall goals of these meetings should be consistent adjudications and fewer Section 221(g)
refusals.

       Informal Recommendation 11: Embassy Hanoi should hold regular adjudication
       meetings at a time other than during lunch in the immigrant visa unit at Consulate
       General Ho Chi Minh City.

         The mission has a policy called “self clearing” that permits experienced, entry-level
officers to send, without a manager’s review, memoranda requesting revocation of a petition.
Given the sensitivity of these memoranda and the need for consistency, a manager should review
all of them before they are sent to the National Visa Center for transmission to the Department of
Homeland Security.

Recommendation 20: Embassy Hanoi should revise Consulate General Ho Chi Minh City’s
petition return policy, to require managers to review all memoranda requesting revocation of a
petition before sending the memoranda to the National Visa Center. (Action: Embassy Hanoi)

       Some officers indicated that managers spend little time on the visa line. The inspectors
emphasized the importance of managers spending some time adjudicating on the line, both to
understand any systemic problems and to regularly see the types of cases that officers encounter.

       Informal Recommendation 12: Embassy Hanoi should require that the Consulate
       General Ho Chi Minh City immigrant visa managers spend at least 1 hour per week, and
       the consular chief some time each month, adjudicating immigrant visa cases.

        The inspectors discussed several procedural changes with consular managers to improve
visa processing. The unit had been taking applicants’ photos after checking documents and
immediately before the interview, and officers were collecting fingerprints during the interview.
Officers were unable to authorize printing of visas at the window, because biometric results were
not ready before the interview was completed. Taking photographs earlier in the process would
allow more time for biometric processing. In addition, if an eligible family member took the
applicant’s fingerprints before the interview, it is more likely that all the information would be
ready in time for officers to authorize visa printing at the window. This approach also would
prevent officers from having to handle an approvable case the second time. The inspectors also
asked the Bureau of Consular Affairs to consider letting Consulate General Ho Chi Minh City
participate early in the roll-out of its new electronic visa application, which requires applicants to
upload their photographs as part of the application process.

       Informal Recommendation 13: Embassy Hanoi should capture photographs for
       Consulate General Ho Chi Minh City at the time files are received from the National Visa
       Center.
                                            26
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        One team of local employees checks documents at the window, and another team enters
data at their desks. It would be more efficient to have the same person both check documents and
complete data entry.

       Informal Recommendation 14: Embassy Hanoi should revise Consulate General
       Ho Chi Minh City’s intake procedures, so the same person checks documents and enters
       data.

         The correspondence unit is a part of the immigrant visa unit, and operates an information
window that is staffed 6 hours a day to provide information to the public. This information is
also available on the Web site. Given the unit’s workload, staff time could be better used on
other tasks. It may be useful to have the window open for 2 hours a day, so applicants can drop
off passports for visa renewals, provided the consulate general implements the system discussed
earlier.

       Informal Recommendation 15: Embassy Hanoi should close the information window at
       Consulate General Ho Chi Minh City, except for a limited amount of time for applicants
       to drop off passports for nonimmigrant visa renewals.

Language Proficiency Requirements

         Vietnamese is an extremely difficult language. Most officers must study at the Foreign
Service Institute for 44 weeks to obtain a 3/3 (general professional proficiency) level. Political,
economic, public affairs, management, and regional security officers find that having some
facility in Vietnamese, even at the 2/2 level (limited working proficiency), is essential for
building relationships, managing staff, and engaging vendors. The Foreign Service Institute
states that someone with a 3/3 “is consistently able to speak the language with sufficient
structural accuracy and vocabulary to participate effectively in most formal and informal
conversations on … professional topics. … (I)n face-to-face conversation … comprehension is
quite complete.” However, experience in Vietnam has shown that even people who can speak at
or above the 3/3 level, which is considered fluent, often need to use an interpreter to understand
the nuances of conversation.

        The situation is somewhat different for consular officers, who must interact with Vietnamese
speakers for hours on end while conducting interviews. All consular positions at Mission Vietnam
are language designated. Supervisors are required to achieve a 3/3 proficiency level. Entry-level
officers, whose positions are 2/2-level language designated, receive 26 to 32 weeks of language
training. Several consular officers told inspectors that after only one year of language training and
testing at the 3/3 level, they did not have the language facility to adequately understand Vietnamese
without the help of an interpreter.

        The nonimmigrant visa applicant pools differ significantly in Hanoi and
Ho Chi Minh City. In Hanoi, applicants tend to be better educated and are easier to understand.
In addition, there are fewer dialects in the northern part of the country than in the South. In
Ho Chi Minh City, in addition to having a different pool of nonimmigrant visa applicants,
officers conduct immigrant visa interviews, which are more complicated and require a more
                                                  27
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

extensive vocabulary. Consular officers in Ho Chi Minh City, but not in Hanoi, use local staff as
interpreters for both immigrant and nonimmigrant interviews. Most officers in Ho Chi Minh City
indicated that, even if they could conduct an effective interview in Vietnamese, it is far more
efficient to use interpreters, although they do find it useful to have a general understanding of
what the applicants and interpreters are saying. Consular officers also indicated the language
training at the Foreign Service Institute did not help them conduct consular interviews; many
were more comfortable talking about nuclear nonproliferation than about family relationships.

         The criteria for designating language study for a particular position (per 13 FAM 221 b.(l))
is that “only those positions where language proficiency is essential, rather than merely helpful or
convenient, should be designated…” Language training, although useful, is expensive and time
consuming. As such, it should provide officers with the particular language skills needed to
adequately perform their job.

Recommendation 21: The Foreign Service Institute, in coordination with the Bureau of
Consular Affairs, should revise the Vietnamese language training curriculum to reflect the
professional requirements of consular officers in conducting visa interviews.
(Action: FSI, in coordination with CA)

Fraud Prevention Unit and Assistant Regional Security Officer for Investigations

         As noted, Vietnam sees high levels of fraud. The consulate general’s fraud prevention
unit consists of a manager, an entry-level officer assigned on a rotating basis, an eligible family
member, and five local employees. The fraud manager previously was deputy chief in the
immigrant visa unit and is therefore well positioned to understand the issues facing the
immigrant visa unit. Immigrant visa fraud issues constitute 95 percent of the fraud prevention
unit’s work. As a result of the backlog reduction project in the immigrant visa section, many of
the files that had been sitting in the immigrant visa unit were transferred to the fraud prevention
unit for investigation, creating a large backlog in that office.

        To deal with the workload, the manager reviews all referrals as they come in, to decide
which may be handled quickly (that is, settled with a quick phone call); which should be
investigated or otherwise require more work; and which should be returned to consular officers.
As a result of her regular communication with referring officers, fewer cases that do not warrant
review are being referred to the fraud prevention unit. Other officers in the consular section also
are helping with the backlog, as time permits.

        Both the fraud prevention unit and the immigrant visa unit are reviewing files to
determine which petition returns are likely to result in revocation and which are likely to be
reaffirmed. The Department of Homeland Security reaffirms the majority of petitions that are
returned for revocation, so this work is critical for managing immigrant visa workload. The
inspectors encouraged the consular section to work with the National Visa Center to continue to
fine tune its revocation memoranda.

       The energetic assistant regional security officer for investigations works well with the
fraud prevention unit and the consular section. He has an investigative background and is

                                          28
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

working with consular officers to increase their understanding about which cases may ultimately
result in law enforcement action.

       The consulate general holds regular Visas Viper meetings with appropriate attendance.
One report during the past year was submitted late, and the inspectors reminded staff of the
importance of timely reporting.




                                         29
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Resource Management
Agency                                    U.S.      U.S.     Foreign     Total       Total Funding
                                         Direct-   Local-   National     Staff          FY2011
                                          Hire      Hire     Local-
                                          Staff     Staff   Hire Staff
Department – D&CP                            44         9         128      181           $ 4,737,206
Department – ICASS DS                         0         0         110      110           $ 1,130,800
Department – ICASS Traditional               12        13         178      203           $ 6,767,200
Department – ICASS OBO                        0         0           0        0           $ 3,803,300
Department – Public Diplomacy                 5         2          31        39          $ 1,152,920
Department – Diplomatic Security              8         1          18        27          $ 1,220,144
Department – Marine Security                  6        0            4        10             $ 89,300
Department – Representation                   0        0            0            0          $78,201
Department – Machine Readable Visas          24         3          22        49          $ 1,081,931
Department – Bureau of Overseas               1        0            0            1       $ 4,572,114
Buildings Operations
Department – Bureau of Educational and        0        0            0        0            $ 746,532
Cultural Affairs
Export Control                                0        0            1            1          $24,450
Total State                                 100        28         492      621          $ 25,404,098



PEPFAR -- OGAC                                0        0            0        0            $ 366,021
Department of Treasury                        2        0            2            4        $ 168,100
Foreign Agriculture Service                   3        0            8        11           $ 592,383
Department of Defense                        18        0           26        44          $ 1,495,335
Drug Enforcement Administration               3         0           3            6        $ 350,000

Department of Homeland Security               2        0            3            5        $ 443,863


Foreign Commercial Service                    4         1          17        22          $ 1,131,716
Department of Health and Human               14        0           45        59          $ 3,482,800
Services

USAID                                        23         0          40        63         $ 40,463,000
Other Foreign Assistance                      0        0            0            0        $ 123,446
Total Other Agencies                         69         1         144      214          $ 48,616,664

Totals                                      169        29         636      835          $ 74,020,762




                                             30
                                 SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Management Overview

        Embassy Hanoi is well funded and adequately staffed in most management sections, and it
has kept pace with the growth in the rest of the mission. It is in line with the size of an expanded
mission population. Despite the Government of Vietnam’s lengthy approval process for new
positions, Mission Vietnam has grown in the number of its U.S. direct-hire positions. Negotiations
for a new embassy compound have stalled, due to the Government of Vietnam’s unwillingness to
grant a lease term that is acceptable to OBO. Leasing additional office space has relieved
overcrowded conditions in the chancery, where long overdue renovations are either completed,
underway, or soon to begin. At Consulate General Ho Chi Minh City, all off-compound agencies
and several Department sections recently moved into consolidated space in a commercial building.
Embassy and consulate general management employees are working to improve cooperation
between the two entities.

Management Operations

        The embassy management office is led by an experienced management counselor who only
recently arrived. The office is comprised of 15 U.S. direct-hire employees, 10 eligible family
members, 106 local staff members, and 3 cleared American contractors. The consulate general’s
management office consists of 6 U.S. direct-hires, 59 local employees, 2 eligible family members,
and 1 cleared American contractor. The goal of both management offices is to begin working as
one team. As a first step, the Hanoi management counselor and Ho Chi Minh City management
officer have weekly telephone conversations. Staff exchanges between the two offices also are
planned as a way to build teamwork, procedural consistency, and cross training. Both officers and
local employees will participate in these exchanges. This arrangement is expected to bolster
Hanoi’s support and oversight of Ho Chi Minh City’s administrative operations.

       Survey respondents indicated high satisfaction with International Cooperative
Administrative Support Services (ICASS) and management operations. In Hanoi, the
management office staff is cohesive and the operation effective. The local employees, some of
whom are approaching 15 years of service with the mission, are not as experienced as their
counterparts in other missions. Staff training and development remain a top mission priority, as
some employees are still developing skills.

        Obtaining an information systems security officer position is at the top of Hanoi’s
management agenda, and the OIG team supports adding the position. Its 2014 Mission Resource
Request (MRR) 2 will include this request. The embassy also will seek to raise the grade of the
regional security officer position from an FS-02 to an FS-01, to reflect an increase in
responsibilities as the mission has grown in size and importance over the past several years. The
embassy also will seek to raise the grades of the supervisory general services officer and human
resources officer positions from FS-03 to FS-02. The OIG team supports the request for these
grade increases, which the embassy will include in its 2014 MRR.


2
    In December 2011, the Department issued 11 STATE 124737, which discontinued the MSRP. The MRR (3-year
    strategic plan, with shorter annual resource requests) replaces the MSRP beginning with the FY 2014 budget cycle.

                                                31
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The mission also might add a human resources officer position at Consulate General
Ho Chi Minh City if it determines that the position is needed, after assessing both human
resources offices once the enhanced interaction initiative is in place. During the inspection,
Embassy Hanoi successfully challenged the imminent expiration of the mission’s unique
conditions of work allowance (which the Department provides to local employees at certain
posts to offset the external hardships they may endure as a result of working for the U.S.
Government). The conditions that led to this allowance continue in Vietnam. The embassy
provided the Bureau of Human Resources with the required information on which to base its
decision. The embassy is developing standard operating procedures to capture and provide this
information in a timely manner.

        Embassy Hanoi will begin a virtual transition to ICASS Standard during FY 2012 and
will implement the change formally in FY 2013. It is investigating the practicality of having the
post support unit in Bangkok handle its travel vouchers. Local staff compensation in Thailand is
higher than in Vietnam, but outsourcing this task will obviate Embassy Hanoi’s need to fill a
vacant voucher examiner position.

        The embassy is working with EAP and the Office of Foreign Missions to address the
large number of reciprocity issues between the U.S. and Vietnamese Governments. Once a
comprehensive list of issues is prepared, it will be presented to the Government of Vietnam.

        To date, the mission has successfully consolidated 10 of 13 administrative functions
identified by the Joint Management Council’s Collaborative Management Initiative. The three
services not yet consolidated are motor pool, administrative procurement, and local staff payroll.
The requirement for the consolidation of the latter two has been deferred. The mission has asked
the Joint Management Council to allow USAID to retain its motor pool. Both USAID and
Department management agree that there are no cost or operational benefits to be gained by
consolidating motor pools until the offices are colocated. The Joint Management Council has yet
to respond. The inspection team believes the mission’s business case for maintaining separate
motor pools at this time has merit.

Consulate General Ho Chi Minh City

        The management office is led by an experienced, newly arrived management officer. In
addition to his other duties, he has direct responsibility for the human resources and financial
management portfolios. His two general services officers and the contract facilities manager are
also new arrivals. At the time of the inspection, the consulate general was still sorting out its
relationship with the embassy.

        Human resources services received low survey scores, and the medical unit was by far
the least favored management service. The management office is aware of both issues and is
addressing them. (b)(5)(b)(6)

                                    The new management team has rapidly strengthened
operations and management controls, but the OIG team cautioned that they should do so in
consultation with Embassy Hanoi.

                                         32
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Real Property

        In an attempt to improve overcrowding at the chancery, Embassy Hanoi has moved
several agencies from the Rose Garden annex to new offices in the Tung Shing building, across
town. This has allowed consular affairs and human resources units, as well as the facilities
manager and parts of the general services unit, to move out of the dysfunctional and
overcrowded chancery and into better and more modern offices. Property and facility
management employees work out of the warehouse. OBO space planners are working on a
comprehensive redesign of chancery office space, which should greatly improve working
conditions. Consulate general offices for all off-compound agencies have been consolidated into
the Diamond Plaza building, a short walk from the compound.

        Negotiations to acquire land for a much-needed, new embassy compound have stalled
over the Government of Vietnam’s unwillingness to grant a lease term that is acceptable to OBO.
OBO has selected a 10-acre site, named Ciputra, as the preferred location for the new facility.
The Government of Vietnam, which is interested in acquiring a new embassy in Washington,
DC, recently withdrew from a proposed property exchange that could have delivered new sites to
both sides on a reciprocal basis.

         Notwithstanding the lack of progress to date, the need for a new embassy compound
remains, and all paths to acquiring a site should be open, including purchasing the Ciputra site,
acquiring it through trade, or using a combination of both approaches. The U.S. Government has
restricted ownership of three properties in Hanoi: the chancery compound, the American club,
and the chief of mission residence. The American club is excess property, with an estimated
appraisal value of $40 million. The acquisition of a site for a new embassy compound is the
mission’s paramount priority in Hanoi, so it would be advisable to retain the American club
property until a site for the new compound has been acquired; the American club, as well as the
current chancery, could be part of a negotiated trade for the Ciputra site. Furthermore, until the
Government of Vietnam provides a site for the new embassy compound, it would be wise to
declare a moratorium on property disposals throughout Vietnam, as well as a moratorium on the
Government of Vietnam acquiring new property in the United States.

Recommendation 22: The Bureau of Overseas Buildings Operations should retain the American
club property until a new site for the new embassy compound has been acquired. (Action: OBO)

        In the current chancery, OBO is replacing the elevator, making other handicapped
accessibility improvements, and replacing the lighting and drop ceilings in controlled access
areas. At the chief of mission residence, OBO is installing an elevator and constructing other
handicapped accessibility improvements. Contracts have been awarded to replace the residence’s
roof and heating and air conditioning systems. The independent government estimate for the roof
project was $500,000. Due to a misunderstanding among Embassy Hanoi, the Bureau of
Diplomatic Security, and OBO, the request for proposal called for all cleared American workers,
when local workers could have been used. This mistake surfaced only after the Bureau of
Administration awarded the contract for $700,000, based on the unnecessary requirement.
Immediate action by the Department could minimize the U.S. Government’s loss. The contractor

                                          33
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

was scheduled to visit Hanoi in November 2011, at which time the embassy intended to discuss
possible remedies.

Recommendation 23: The Bureau of Administration, in coordination with Embassy Hanoi, the
Bureau of Overseas Buildings Operations and the Bureau of Diplomatic Security, should take
immediate action to minimize the U.S. Government’s loss associated with the roof replacement
contract for the chief of mission residence. (Action: A, in coordination with Embassy Hanoi,
OBO and DS)

         During the predeparture residential inspection of property number 2001, the former
facility manager discovered that the occupants had painted and written on multiple walls and
other surfaces of the residence, causing thousands of dollars in damages. The inspection team
visited the residence and verified the extent of the damage. The occupant was not billed for the
damages before he left post and to date has not been presented with a bill.

Recommendation 24: Embassy Hanoi, in coordination with the Bureau of East Asian and
Pacific Affairs, should assess the damages to the residence at property number 2001, bill the
former occupant for repair costs, and confirm that payment has been received. (Action: Embassy
Hanoi, in coordination with EAP)

Consulate General Ho Chi Minh City

         The two-story consulate general office building was constructed in 1999 as an interim
facility. Given that obtaining a new consulate general compound is unlikely, the building is
scheduled for a $3.7 million security upgrade. To better house the increased number of consular
section employees, additional cubicles have been installed. A $5.3 million consular renovation
project to enlarge consular office space and create more interview windows is scheduled for FY
2015. In 2011, the PAS and all off-compound agencies were colocated to leased offices in the
Diamond Plaza building.

        The U.S. Government has “restricted” ownership of four properties in Ho Chi Minh City:
the consulate general compound, the off-site warehouse, the Le Quy Don vacant lot, and the Ba
Huyen Thanh Quan vacant lot. The latter two are excess properties. OBO has expressed interest
in constructing a residential facility on the Le Quay Don property, through a possible public–
private partnership. The Le Quay Don and Ba Huyen Thanh Quan properties could be part of a
trade for the Ciputra site in Hanoi.

Recommendation 25: The Bureau of Overseas Buildings Operations should not pursue a
public–private partnership nor dispose of either the Le Quay Don or Ba Huyen Thanh Quan
properties in Ho Chi Minh City until a site for the new embassy compound in Hanoi has been
acquired. (Action: OBO)

        The consulate general has 46 fully serviced apartments, 8 detached residences, and the
consul general’s apartment. Although OBO discourages leasing fully serviced apartments, it
recognizes the unavailability of suitable, nonserviced apartments. Fully serviced apartments are
furnished, and the lease cost includes maid service, cable television, and Internet services.
Efforts to convince landlords to reduce lease costs in conjunction with the removal of any of
                                                 34
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

these services have proven futile. OBO determined, based on guidance from the Office of the
Legal Advisor, that it is unnecessary to charge residents for the extra services at this time.

        In 2010, the embassy’s former financial management officer erroneously approved using
$101,000 of ICASS funds to renovate the community center. The use of ICASS funds to
renovate or construct permanent facilities is not permissible under Department guidance, unless
specifically authorized by law (11 STATE 023955). OBO has expressed dissatisfaction with the
way the project was handled and also has voiced concerns regarding the safety of the building.
The work was completed without OBO’s required approval and building permits. According to
Embassy Hanoi’s facility manager, OBO has since provided $5,000 to the embassy to make
handicapped accessibility improvements to two bathrooms. OBO will not reimburse the mission
for the renovation work. In the July 2011 chief of mission statement of assurance, Embassy
Hanoi reported this incident and described its plans to work with OBO to resolve it. The OIG
team considers the issue closed.

General Services

        The Embassy Hanoi general services office, with the exception of its procurement unit,
performs well. The travel section requires some adjustments. The general services office is led
by a knowledgeable supervisor and two assistant general services officers, one of whom was
recently added as part of the Diplomacy 3.0 exercise. The office is adequately staffed with local
employees, as well. Despite the growth of the mission over the last several years, the supervisory
general services officer position is graded FS-03. In its next MRR, the mission will lobby to
increase the grade for this position to FS-02, and the OIG team supports the grade increase.

        At Consulate General Ho Chi Minh City, the general services office is highly regarded
and performs well, with a few exceptions (noted below). The office is led by an enthusiastic,
second-tour officer who is assisted by a first-tour officer in the newly created position. Both
officers were in language class with the management officer prior to their arrivals at post, which
has facilitated team-building.

Procurement

        The procurement unit in Hanoi is performing at a less than satisfactory level. While the
section satisfies customer demands for goods and services, it does so in a less than optimal way.
The inspection team found incomplete contract files, as well as poorly prepared and managed
blanket purchase agreements. The general services officer is aware of the latter problem and is
actively working to rectify the problem. Training for the procurement supervisor and the
procurement contract assistant is already scheduled. The Office of the Procurement Executive
has already agreed to provide a staff assistance visit.

Recommendation 26: Embassy Hanoi should implement standard operating procedures for
maintaining complete contract files and properly preparing and managing blanket purchase
agreements. (Action: Embassy Hanoi)



                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Consulate General Ho Chi Minh City

       The Ho Chi Minh City procurement office has been ordering some packing and shipping
services without the proper procurement instruments (Federal Acquisition Regulations 4.101).
The office provided vendor quotations to the Seattle Despatch Agency for its determination on
the most favorable shipment method. If the Despatch Agency determines that the services should
be procured locally, a customs and shipping assistant notifies the selected, local shipping
company without involving the contracting officer. Approximately 20 percent of these services
are procured locally. A number of options are available to procure packing and shipping services,
including purchase orders, blanket purchase agreements, and indefinite delivery/indefinite
quantity contracts. Not involving the contracting officer circumvents proper procurement
requirements and can result in unauthorized obligations.

Recommendation 27: Embassy Hanoi should prepare a proper procurement instrument for
Consulate General Ho Chi Minh City’s packing and shipping requirements.
(Action: Embassy Hanoi)

Travel
        The embassy’s travel section performs effectively, although the travel assistant spends
about 40 percent of his time on nonofficial travel demands. The supervisory general services
officer intends to minimize this distraction, so the travel assistant can focus more on handling
official travel requests.

         The mission lacks a travel management contract, and its agreement with its current travel
agency has lapsed, although both parties abide by the terms of the former agreement. The
embassy found the General Services Administration contractor did not perform as well as the
selected travel agency. The travel agency charges a fee equal to 4 percent of the cost of each
ticket, and bills monthly.

Recommendation 28: Embassy Hanoi should compete and award a contract with a travel
management center for its mission-wide travel requirements. (Action: Embassy Hanoi)

Warehouse and Property Management

        The warehouse and property management section at Embassy Hanoi perform effectively,
although 19 residential property inventories were not signed by employees. Obtaining
employees’ concurrence on the accuracy of the residential inventories at the start of their tours
tends to minimize disagreements in preparation for their departures. Additionally, the property
management report for FY 2010 lacked assurances from the information management and
medical staffs, confirming that they had completed their required inventories.

         Informal Recommendation 16: Embassy Hanoi should implement procedures for
         employees to sign residential inventories within 30 days of their occupying assigned
         residences.




                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 17: Embassy Hanoi should implement procedures for the
       information resource management and health units to inventory their property and make
       note of their respective inventories on the property management report.

Consulate General Ho Chi Minh City

        The consulate general’s on-site, expendable property warehouse is disorganized and
cluttered. The staff needlessly maintains stock control cards, even though they are also using an
electronic stock-control system.

       Informal Recommendation 18: Embassy Hanoi should require Consulate General
       Ho Chi Minh City to properly organize its expendable property warehouse and cease
       using manual stock control cards.

        The consulate general’s off-site, nonexpendable property warehouse is well organized
and well maintained. The newly constructed warehouse is located on “restricted,” U.S.
Government-owned property and intended for intermittent use. It has an enclosed receiving area,
but because the staff is not located there and it lacks OpenNet connectivity, the receiving takes
place at the expendable property warehouse. The estimated cost to install OpenNet connectivity
at the actual receiving area is $10,000. Based on a September 26, 2011, Bureau of Diplomatic
Security finding, the mission will establish intermittent workspace for the warehouse supervisor,
four warehousemen, and the receiving clerk, with the understanding that, due to security
regulations, they may not routinely occupy this space continuously for the entire workday. It also
will install OpenNet connectivity. The OIG team endorses this plan.

        None of the four warehousemen drive trucks, nor do their position descriptions require
them to do so. Deliveries that require a truck are handled by either contractors or motor pool
drivers. This way of doing business is not optimal. A fifth warehousemen position is now vacant,
and the supervisor is slated to retire; these changes is staffing provide an opportunity to revisit
the issue of truck driving duties.

       Informal Recommendation 19: Embassy Hanoi should revise the position descriptions
       for the Consulate General Ho Chi Minh City warehousemen to include driving duties,
       and fill the warehouse unit’s vacancies with individuals who are licensed to drive trucks.

Facility Management

        The embassy’s facility management office performs effectively. It includes 25 tradesmen
and administrative personnel, 12 janitorial staff members, and three cleared American
contractors who handle work in controlled access areas. The facility manager arrived in January
2011. Prior to his arrival, the mission’s occupational safety and health committee last met in
October 2009. The committee, chaired by the Chief of Mission, met in September 2011 and
plans to meet semiannually. At the meeting, the committee discussed recommendations from the
2009 report of the Office of Safety, Health, and Environmental Management. The inspection
team reviewed the mission’s compliance with that report’s recommendations. To date, 83 percent
of the recommendations have been closed.

                                          37
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Consulate General Ho Chi Minh City

        The Ho Chi Minh City facility management office serves the consulate general well.
Support from Embassy Hanoi is satisfactory. The staff, which includes tradesmen, gardeners, and
custodial employees, is managed by a contractor facility manager. Their focus is solely on the
consulate general compound. The occupational safety and health committee was inactive until
recently, but the program itself is robust. The post occupational safety and health officer’s
assistant recently was third runner-up for the Department’s post occupational safety and health
officer’s assistant award. Most of the recommendations from the 2009 report of the Office of
Safety, Health, and Environmental Management report have been addressed.

        The unit recently completed a $1.2 million telephone replacement project and consular
space configuration. A $3.7 million compound security upgrade is planned for 2012. The
consulate general’s recommended changes to the project were noted during a recent physical
security team visit. A $5.3 million consular renovation project is envisioned for FY 2015.

        The facility management office keeps a supply of building materials, as well as
miscellaneous supplies, in a storage room adjacent to its offices. It does not maintain property
records on these materials and supplies. The expendable property warehouse is near the facility
management office, so the property management team could store this property there and
manage it.

       Informal Recommendation 20: Embassy Hanoi should require Consulate General
       Ho Chi Minh City to consolidate the facility management’s office materials and supplies,
       store them in the expendable property warehouse, and properly control them.

Human Resources

        The human resources office in Hanoi is both capable and effective, as reflected by
positive survey responses. The American unit chief has worked hard to develop and fine tune the
capabilities of her team of seven local employees and three local-hire Americans. There is a link
to human resource services on the embassy’s intranet site. With the backing of the embassy’s
new management counselor, the human resources officer is redoubling her efforts to enhance
support to Ho Chi Minh City. This effort will require building a mutually beneficial relationship
with Ho Chi Minh City’s new management officer and his three-person staff to foster seamless
customer service and communication in both directions. In view of the size and complexity of
the mission, the management counselor has proposed upgrading the human resources officer
position from FS-03 to FS-02. The inspectors support this initiative.

        In Ho Chi Minh City, several off-cycle employee performance evaluations for entry-level
officers were late, including four that were 3 months overdue. As mentors, supervisors of entry-
level officers should pay particular attention to the timely counseling and evaluation of their
untenured employees.

Recommendation 29: Embassy Hanoi should require supervisors to properly counsel and
mentor entry-level officers and submit their performance evaluations on time.
(Action: Embassy Hanoi)
                                                38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



       All delinquent work requirements statements for Foreign Service staff in Hanoi were
completed during the inspection. However, the work requirements statements for 16 consulate
general employees are still outstanding. In addition, work requirements statements, mission-
wide, do not consistently address the need to submit employee efficiency reports (for either
American or local employees) on time.

Recommendation 30: Embassy Hanoi should include a work requirement for all supervisors of
American and local employees, to complete their employees’ work requirements and
performance evaluation reviews on time; and it should rate the supervisors accordingly.
(Action: Embassy Hanoi)

         The mission awards program is well structured, funded, and advertised. Ceremonies
are held twice each year. The interagency, joint awards committee reviews award nominations
from both the embassy and consulate general. However, the inspectors found a pattern at
Ho Chi Minh City of yearly awards being given to the same individuals and groups, which
devalues the awards program for other employees. As EAP has cut the mission’s 2012 awards
funding by 29 percent in FY 2012, it is particularly important that the award process be seen
as fair and equitable.

       Informal Recommendation 21: Embassy Hanoi should instruct members of the awards
       committee to carefully examine patterns of repetitive awards, to maintain the integrity of
       the awards program.

        Mission Vietnam staff is generally well trained, and increasing numbers of employees are
taking advantage of free training online. The mission would benefit from a comprehensive
training plan that could be adjusted as priorities change. Such a plan would help the embassy
meet the most urgent training needs. Allocating funding specifically for training purposes would
highlight the importance of training as a mission objective.

Recommendation 31: Embassy Hanoi should establish a comprehensive, mission-wide training
plan, and allocate specific resources for training. (Action: Embassy Hanoi)

        Both the embassy and consulate general are late in submitting their retail price surveys
and living pattern questionnaires to the Department. The delay could put the mission’s U.S.
direct-hire staff at a disadvantage, in the event that an increased cost of living allowance is
justified.

Recommendation 32: Embassy Hanoi should submit the embassy’s and consulate general’s
retail price surveys and living pattern questionnaires to the Department as soon as possible, and
establish standard operating procedures for the timely submission of all future submissions.
(Action: Embassy Hanoi).

        In Hanoi, the locally employed manager of the chief of mission residence was, until
2009, a member of the official residence staff, and thus worked under contract directly for the
Ambassador. In 2009, the embassy requested that the bureau reprogram a vacant local position to
be that of residence manager. The justification for the change was the position’s broad scope of
                                                 39
                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

   responsibility. After initial misgivings within post management and the EAP executive office,
   EAP approved reprogramming the permanent position. The position description was tailored to
   fit the abilities of the Ambassador’s residence manager, and reclassified at the highest possible
   level. It was advertised internally for 1 week, rather than being advertised broadly outside of the
   mission, after which the Ambassador’s incumbent residence manager was hired into the
   permanent position at an annual salary increase of $2,000.

   Recommendation 33: Embassy Hanoi, in coordination with the Bureau of East Asian and
   Pacific Affairs and the Bureau of Human Resources, should determine whether the residence
   manager position should be a local direct-hire position or a contract employee working directly
   for the Ambassador as a member of the official residence staff. (Action: Embassy Hanoi, in
   coordination with EAP and DGHR)

(b)(5)(b)(6)




   Recommendation 34: (b)(5)(b)(6)




   Locally Employed Staff Committees

           In Hanoi, the locally employed staff association committee is made up of representatives
   from each section and agency. Board members are now selected by the different sections and
   agencies. The board is considering switching to general elections, in an effort to promote greater
   interest among local staff in association activities. The association raises funds through the sale
   of embassy logo items and garage sales. The new Ambassador and DCM have met with the
   board once and will continue to do so as needed. The new management officer plans to meet
   with the board quarterly.

           The Ho Chi Minh City locally employed staff association has a 10-member board. It
   operates independently of the embassy association, but the two groups meet once a year to
   discuss topics of common interest and participate in the “Mission Cup” soccer match. The focus
   of the consulate general association is raising funds for charity and the care of family members
   who are in need. As is local custom, the board organizes visits to family members and donates
   funds for weddings, funerals, and other important family events. It is partnering with the
   community liaison office to organize joint cultural events with American staff to promote mutual
   understanding. Funds are raised through the sale of logo items, but inadequate controls are in
   place to ensure proper management of sales proceeds. The board has sought management’s
   advice on how to make sure its fund raising activities are within established guidelines.


                                             40
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 22: Embassy Hanoi should advise the locally employed staff
       associations in both Embassy Hanoi and Consulate General Ho Chi Minh City on
       establishing appropriate guidelines and procedures for cash management, logo item sales,
       and other fund raising activities.

       Local staffing in Hanoi and Ho Chi Minh City is stable, and morale is generally good.
There is concern, however, that the 2-year wage freeze, coupled with rapid inflation, is rendering
mission employment less attractive. There is concern that outside job opportunities will become
more attractive when the local economy improves. (b) (5)




Equal Employment Opportunity and Federal Women’s Program

       Mission Vietnam has an active Equal Employment Opportunity program. In Hanoi, there
are two American counselors and six local staff liaisons strategically placed across section and
agency lines. Ho Chi Minh City has two American counselors and four local staff liaisons.
Counselors and liaisons have received formal, Equal Employment Opportunity training. An
Office of Civil Rights team visited Vietnam in August 2011 and trained all available American
and local employees. Both posts have Equal Employment Opportunity and Federal Women’s
Program information prominently displayed on bulletin boards throughout their facilities, as well
as OpenNet links to a wealth of information on both these programs.

Financial Management

        The financial management office in Hanoi, which received high scores on both the OIG
questionnaires and the ICASS customer service satisfaction survey, is directed by a dedicated
FS-02 financial management officer whose job knowledge and commitment to customer service
have served the mission well. She and her local staff of 12 are well organized and trained to
effectively support the financial needs of both the embassy and consulate general. The financial
management office in Ho Chi Minh City consists of a cashier and a voucher assistant.

         The inspection team found payment vouchers (travel, representation, official residence
expense, etc.) to be in good order and fully documented in all but a few instances. Attuned to
important details, the financial management officer stopped the improper practices of making
official residence reimbursement payments to the former Ambassador’s house manager, rather
than to the Ambassador. The financial management officer also changed the practice of
retroactively charging residence staff overtime to the representation budget, rather than to the
relevant event. The unit carefully monitors unliquidated balances of prior-year obligations for
contracts and grants to ensure that program offices liquidate and deobligate funds as quickly as
possible. In February 2012, the financial management officer’s initiative to have travel vouchers
audited and certified by Bangkok’s post support unit will be implemented, negating the need to
fill a vacant local staff position.
                                                41
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        In September 2011, the embassy spent $11,614—22 percent of its annual representation
budget—on a large order of American wines, which was surplus to its immediate needs. Per
3 FAM 3246.3-6 b., posts are not authorized to use excess, year-end funds to purchase wine that
is not a bona fide need of that fiscal year.

Recommendation 35: Embassy Hanoi should not use excess year-end funds to purchase wine
that is not needed in the current fiscal year. (Action: Embassy Hanoi)

        The Chief of Mission, DCM, and consul general are required to contribute 3.5 percent of
their base salary towards the annual, usual household expenses of their official residences. On
three occasions, the consul general in Ho Chi Minh City paid his official residence expense
contribution one month late. According to regulations (3 FAM 3257 b.), official residence
expenses must be paid or reimbursed monthly.

Recommendation 36: Embassy Hanoi should enforce the requirement that the Chief of Mission,
deputy chief of mission, and consul general submit their official residence expense payments
monthly. (Action: Embassy Hanoi)

Cashiering
       (b) (5)


                                                           The cashier provides accommodation
exchange to the community, since banking regulations do not permit establishment of a retail
operation in the embassy and use of ATM machines is discouraged, due to the high incidence of
credit card fraud and identity theft. The Hanoi cashier operation is exceptionally well organized,
automated, and efficient. Unannounced cash counts take place monthly, and subcashier
verifications are up- to- date.

         The Class B cashier at Consulate General Ho Chi Minh City maintains an accountability
of (b) (5)   and provides accommodation exchange to the official American community. As in
Hanoi, the cashier runs a well organized operation, with all safeguards in place. The Bangkok
Regional Finance Center cashier monitor visited Hanoi and Ho Chi Minh City in April 2011, and
found all accounts and procedures in order.

International Cooperative Administrative Services System

        The financial management officer has forged an excellent relationship with the ICASS
chair and the council. They take the ICASS process seriously, collaborate on ways to improve
service where necessary, and keep the community informed of their actions. The
Ho Chi Minh City management staff participates in ICASS meetings via video conferencing.
Mission Vietnam received overall customer satisfaction results higher than the EAP and
worldwide averages, and was graded “A” on its 2011 budget scorecard. A PowerPoint presentation
on developing ICASS budgets, developed by the financial management officer, was widely
distributed as “how to” guidance for other ICASS posts. ICASS funding to Mission Vietnam is

                                          42
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

generous. In Hanoi, ICASS service standards are posted at each service provider’s office to ensure
full transparency. The consulate general plans to post its standards, as well.

Rest and Recuperation Travel

        U.S. direct-hire employees in Hanoi and Ho Chi Minh City receive rest and recuperation
travel benefits, which reflects the challenges of living in Vietnam. In accordance with regulations
(3 FAH-1 H-3721.4), both the embassy and consulate general earlier this year submitted to the
regional bureau its required justification to continue this benefit.

Post Differential

        Until 2011, U.S. direct-hire employees in both Hanoi and Ho Chi Minh City received a
25 percent post differential (hardship) allowance. In February 2011, the Department reduced
Hanoi’s differential to 20 percent, based on post’s biannual differential questionnaire, submitted
to the Office of Allowances. In August 2011, Ho Chi Minh City’s differential was revalidated at
25 percent. (b) (5)
                        OIG found that conditions in Hanoi merit a differential no lower than that
of Ho Chi Minh City. Inspectors noted that embassy management did not review or clear
consulate general’s submission for mission-wide consistency in characterizing the relative degree
of hardship at each post.

Recommendation 37: Embassy Hanoi should coordinate all submissions of Embassy Hanoi’s
and Consulate General Ho Chi Minh City’s post differential questionnaires, to ensure that
relative differences in hardship at both posts are accurately reflected. (Action: Embassy Hanoi)

Information Management

        The IM section, working in a challenging environment, is an efficient, well managed
operation that generally meets customer needs, as evidenced by high marks on OIG
questionnaires. Operations between Embassy Hanoi and Consulate General Ho Chi Minh City
are cohesive, and the two units communicate effectively via digital video conferences. The OIG
team inspected all facilities, reviewed systems and operating procedures, and assessed the mail
room, and concluded that internal operations are solid, and the two units are up-to-date on all
standard operating practices. Given that a new embassy compound is not in the foreseeable
future for Embassy Hanoi, the OIG team determined that its IM work space needs attention.
Additionally, both posts face staffing issues, due to the requirement that American, rather than
local, IM staff handle unclassified systems oversight. Both issues are addressed below.
Contingency planning, information management, and physical security issues are covered in the
classified annex of this report.

Space

        Since the 2005 OIG inspection, Consulate General Ho Chi Minh City has created new
offices and a new training facility; implemented a new telephone system, developed Facebook
sites for customers, hosted IM representation events; and is forging ahead with cost-saving

                                          43
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

programs. In contrast, Embassy Hanoi operates in an old, tight work space requiring renovation,
and it struggles to keep up with a growing customer base at four different locations. At Embassy
Hanoi, incoming mail is stored in the hallway, blocking the emergency exit. During the
inspection, the unit identified new office space in the front of the building, which would be ideal
for mail operations. The cost of moving mail operations to that space would be $10,000. The
OIG team endorses the relocation of the mail room.

       Customers located at Embassy Hanoi’s Rose Garden annex require IM assistance, yet
technicians do not have onsite workspace. Rose Garden staff would be better served if IM had
space and a staging area on site, so that they could quickly resolve issues and save time that
would otherwise be spent traveling between sites. The OIG team visited the Rose Garden during
the course of the inspection and identified available space.

Recommendation 38: Embassy Hanoi should establish work space for information management
staff in the Rose Garden annex. (Action: Embassy Hanoi)

       During a tour of embassy offices, the OIG team determined that some printers have not
been networked, in accordance with the Department’s Greening Diplomacy Initiative.
Networking printers saves energy, is more efficient, and reduces the costs associated with having
multiple, separate printers and related supplies (maintenance costs, toner, etc.).

       Informal Recommendation 23: Embassy Hanoi should network all printers for the
       embassy’s offices.

Staffing

      The local staff is prohibited from performing OpenNet system administrative functions,
including desktop support, due to a recent Bureau of Diplomatic Security computer security
review. Thus, American IM staff must oversee and resolve unclassified systems and desktop
support issues, in addition to handling their regular duties. This requirement has generated
regular overtime work for the American staff. However, the most recent MSRP did not include
a request for a new, full-time U.S. direct-hire position in the IM section. Embassy Hanoi and
Consulate General Ho Chi Minh City should reassess their staffing needs, including the need
for an information systems security officer, to make sure they can perform critical security
duties and meet all mission needs.

Recommendation 39: Embassy Hanoi, in coordination with the Bureau of East Asian and
Pacific Affairs and the Bureau of Information Resource Management, should review information
management assets mission-wide, to resolve information management understaffing.
(Action: Embassy Hanoi, in coordination with EAP and IRM)

        The Global Information Technology Modernization program has just published the latest
core training requirement for IM professionals, and it is important for all cleared American staff
to take advantage of this funded program. Consulate General Ho Chi Minh City is scheduled for
the global technology refresh this fiscal year, and it would be prudent for staff to take training on
the hardware that will be installed.

                                          44
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 24: Embassy Hanoi should require the entire mission’s
       information management staff to complete Global Information Technology
       Modernization program training.

Dedicated Internet Networks

       Embassy Hanoi and Consulate General Ho Chi Minh City have an abundance of
Dedicated Internet Networks. Many are registered and heavily used, but there is an opportunity
to reduce these networks, now that the staff has settled into new offices in both locations. These
networks require service and support, which is a burden on the IM staff. Per 5 FAM 872.1, the
embassy should reduce the number of Dedicated Internet Networks wherever possible.

Recommendation 40: Embassy Hanoi should conduct an inventory of its Dedicated Internet
networks and consolidate the Networks, where possible. (Action: Embassy Hanoi)

Local Information Technology Change Control Board

        Embassy Hanoi has established a local information technology change control board.
However, the majority of the board members are from the IM section. Per 5 FAM 862.2, the
local change control board should include other members, as appropriate. Adding representatives
from other sections, such as public affairs, would prevent the appearance of conflict of interest,
as well as increasing the IM staff’s knowledge of its customers’ business needs.

Recommendation 41: Embassy Hanoi should include representatives from different sections in
the local information technology change control board. (Action: Embassy Hanoi)

        Recently, one embassy section purchased equipment that was not cleared by the IM
officer, resulting in confusion as to whether it could be technically supported.

       Informal Recommendation 25: Embassy Hanoi should require all sections to clear any
       requests for computer equipment with the information management officer.

       Different sections contribute to the Consulate General Ho Chi Minh City’s intranet site.
However, not all links work, nor is all the material updated. For example, the IRM organization
chart was outdated and did not match the telephone directory. Additionally, the link to Embassy
Hanoi’s intranet site is located on the lower right side of the page and does not reflect a “one
mission” concept. This situation can be frustrating to customers seeking information.

       Informal Recommendation 26: Embassy Hanoi should require Consulate
       General Ho Chi Minh City to monitor, verify, and update links in a timely manner.




                                          45
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Health Unit

        Health unit staffing at Embassy Hanoi consists of a Foreign Service health practitioner,
two registered nurses, and an administrative assistant. Neither the outgoing nor incoming health
practitioner was in Hanoi during the inspection. This position also has responsibility for
Consulate General Ho Chi Minh City. The outgoing Foreign Service health practitioner noted
inadequate staffing and inadequate facilities as major concerns, and called for the addition of a
locally hired doctor, physician assistant, or nurse practitioner. The inspection team concurred
regarding the inadequacy of health unit facilities, which has only one examination room and no
storage for temperature-controlled medications. However, the team was not convinced of the
need for additional medical staff at this time. The planned expansion of the health unit into
adjacent space will permit needed improvements, including allowing for private discussions that
cannot be overheard in adjacent rooms.

        Recommended immunizations for Vietnam include Japanese encephalitis. However, the
health unit does not stock Ixiaro, the Federal Drug Administration-approved vaccine, due to the
high cost of the two-shot series. Told of this situation, the regional medical officer indicated that
ICASS has never had an issue funding vaccinations, regardless of the cost, and that Ixiaro would
be made available and provided as required. Based on this assurance, the OIG team has
confidence that Ixiaro will be made available at post.

       The regional medical office at Embassy Bangkok has launched a promising pilot project,
involving electronic medical records. Thus far, more than 870 patient records are registered in
the embassy’s account on Practice Fusion, a free, Internet-based system that meets both the
President’s mandate for electronic health records and all Federal requirements for protecting
personal information. The system provides for medical charting, e-prescribing, document
management, appointment scheduling, and more. Once its effectiveness is proven, this project
could improve operations at both the Hanoi and Ho Chi Minh City health units.

Consulate General Ho Chi Minh City

         The Ho Chi Minh City health unit was experiencing a period of uncertainty and poor
customer service at the time of the inspection. Health unit staffing consists of a registered nurse
and an administrative assistant. With the departure of its long-serving doctor left the post. Since
then, more the Foreign Service health practitioner from Hanoi and the regional medical officer
from Bangkok have made more frequent visits. The mission has pressed for its own Foreign
Service health practitioner, but neither the Office of Medical Services nor EAP has agreed to
fund the position. Any decision regarding the establishment of this position should wait until a
locally hired physician is in place. The inspectors anticipate that filling the physician position
will negate the need for a Foreign Service health practitioner. Although six applicants have
applied for the position, the consulate general believes the candidates will find the salary too
low. Washington has denied an increase in salary, as the exception rate range mechanism is
affected by the Federal wage freeze. The deployment of a telemedicine hook-up linking


                                          46
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Ho Chi Minh City with Bangkok, already requested from the Office of Medical Services, should
bolster confidence in the health unit, as it will allow real-time medical consultations.

Community Liaison Office

        The community liaison office at Embassy Hanoi is staffed by a full-time coordinator and
full-time, locally employed administrative assistant. Plans call for the addition of a part-time
(20 hours per week) coordinator. By all accounts, the office performs well and meets mission
expectations. Like other offices in the chancery building, the community liaison office is
cramped. The two employees share one work area, and the office’s administrative assistant must
leave the room during sensitive conversations with American customers. There is no bilateral
work agreement, but 16 family members are employed outside the embassy, and 11 eligible
family members are employed inside the embassy.

        In Ho Chi Minh City, the community liaison office is staffed by two part-time (20 hours
per week) coordinators and a full-time, locally employed administrative assistant, who also
writes the community newsletter. Going forward, the coordinators will overlap several hours per
week, enabling them to better organize community activities and their other shared
responsibilities. Three family members are employed outside, and seven work inside, the
consulate general.

Employee Association

        The American Community Association of Hanoi’s sole activity is operating the American
club. For many years after the United States and Vietnam reestablished diplomatic relations, the
club did a robust restaurant and special-event business from its U.S. Government-owned facility
in the heart of the old city. As Vietnam has prospered, families have moved to the suburbs,
where a number of high quality restaurants have opened. Consequently, the club has become less
relevant and has fallen on hard times. Few embassy employees use the facility, except to attend
community events. Today, the club derives virtually its entire revenue by renting its facilities to
outside organizations for special events. For security and other reasons, the club has become
more restrictive as to which groups may rent the club and, as a result, is now operating at a loss.

        In 2010, a turnover in key association positions resulted in lapses in internal controls,
which now are being addressed by the association board. With the full support of the new
Ambassador and DCM, the association recently hired a new, energetic manager with food and
beverage industry experience in the West, to develop strategies to reverse the club’s fortunes.
The board and manager should seek advice from the Office of Commissary and Recreation
Affairs, as the association works to turn the club around and make it relevant to the official
American community. As the association board charts the way ahead, it should keep in mind that
any future purchase agreement between the Department and the Government of Vietnam for a
new embassy site could include the American Club property.

       Informal Recommendation 27: Embassy Hanoi should request a visit by an appropriate
       official of the Bureau of Administration’s Office of Commissary and Recreation Affairs,
       to advise the new American Club manager and association board on stabilizing
       association operations.
                                               47
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



             Consulate General Ho Chi Minh City has not established an employee association,
      although management is assessing the viability of establishing a canteen on consulate general
      premises.

      Overseas Schools

              In April 2011, the regional education officer from the Office of Overseas Schools visited
      the Hanoi and Ho Chi Minh City schools and deemed them generally acceptable, particularly at
      the primary and middle school levels. However, both the embassy and consulate general have an
      away-from-post education allowance, due to the relative differences in curriculum and
      exceptionally small size of its high school classes. No parents were taking advantage of the
      allowance at the time of the inspection.
(b)(5)(b)(6)




                                               48
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        The need for a heightened involvement by embassy management in the mission’s
management controls program is evident. The Chief of Mission is the post management controls
coordinator; his alternate is the management counselor. At Ho Chi Minh City, the management
officer fills this role. None of these individuals were at post when the chargé d’affaires ad
interim submitted Mission Vietnam’s annual statement of assurance on management controls for
the period ending June 30, 2011. The chargé concluded that the results of internal and external
reviews provided reasonable assurance that management control objectives were achieved. She
cited compliance with various requirements in financial reporting, property management, vehicle
inventory, housing and construction program management, and safety and health. However,
inspectors found several issues, not included in the statement of assurance, that require attention.

Fundraising

         Since at least 2008, Embassy Hanoi and Consulate General Ho Chi Minh City have
raised funds for charitable causes in conjunction with their respective July Fourth events. An
insert inviting guests to contribute to a specific charitable cause, in lieu of sending flowers, was
included with both the Ambassador’s and consul general’s invitations to the events. In Hanoi,
guests were requested to send donations directly to a specified charity. In Ho Chi Minh City,
cash donations were collected at the event by local employees, who forwarded the money to the
charitable organization.

        For the 2011 Fourth of July event, Ho Chi Minh City decided to use the locally employed
staff association as a conduit for its charitable giving. Funds raised would be deposited with the
association treasurer, and charitable organizations selected by a committee chaired by the consul
general. (b) (5)




       (b) (5)




                                          49
                              SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

(b) (5)




          Importation of Personal Vehicle

                   The consul general in Ho Chi Minh City circumvented host government importation
          restrictions by bringing in a vehicle that was more than 5 years old. There have been no reported
          repercussions. The stated reason behind the importation was to encourage the host government to
          relax this importation requirement, but the matter has not gained any momentum. It has not been
          followed up with a diplomatic note, nor was the issue raised with the Office of Foreign Missions.
          No other exceptions to the rule have been attempted, though some officers were encouraged to
          also import vehicles older than 5 years.
                                                          50
                                         SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Consular Management Controls

       Consular managers in Vietnam are following correct procedures for the control of
accountable items. Access to the consular section in Hanoi is controlled, and access to the
consular section in Ho Chi Minh City is addressed earlier in this report. Accountable items are
well secured, and accountable officers are designated in writing, with backups also designated in
writing. The accountable consular officers at both posts had sometimes delayed signing daily
accounting sheets, but both officers began daily signatures during the inspection.

        Supervisory officers were adjudicating referrals in Ho Chi Minh City. In Hanoi, a
nonsupervisory officer had approved Class B referrals, sometimes because he was the only
officer available. During the inspection, the consular chief issued guidance that this practice
should end, and that if a nonsupervisory officer was acting as a supervisor, it should be clearly
reflected in the notes. The correct officers conducted adjudication reviews, but in
Ho Chi Minh City reviews were not at the levels required by 9 FAM 41.121 and 41.113 PN 17.
The level of reviews was low, because acting supervisors did not realize they should review all
the cases that were normally reviewed by the supervisor on leave. The consular chief in
Ho Chi Minh City issued new guidance to resolve this problem.

        In Hanoi, a technical glitch was resolved that had caused difficulty for the DCM’s review
of the consular chief’s adjudications. She completed the required reviews during the inspection
and plans to continue with these reviews. Consular automated systems are up to date. The
consular, shared tables are current, and user roles are correctly assigned and maintained.

       In Ho Chi Minh City, the backup consular cashier does not have her own cash advance;
she and uses the consular cashier’s drawer and advance when the cashier is out, which is
contrary to guidance in 7 FAH-1 H-734.5 b. and 4 FAH-3 H-393.4-3 d.

Recommendation 45: Embassy Hanoi should provide a separate cash advance and a separate
safe drawer with a separate combination for the backup consular cashier in Consulate General
Ho Chi Minh City. (Action: Embassy Hanoi)

      Recommendations in this report address other areas, including the visa referral system in
Ho Chi Minh City.




                                          51
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Hanoi should implement a plan for American and local staff to
conduct regular, working visits between Embassy Hanoi and Consulate General
Ho Chi Minh City. (Action: Embassy Hanoi)

Recommendation 2: Embassy Hanoi should require that all meetings attended by Consulate
General Ho Chi Minh City staff and related in any way to official matters include a note taker.
(Action: Embassy Hanoi)

Recommendation 3: Embassy Hanoi should deconflict, separate, and clarify the work
requirement statements and position descriptions for all Consulate General Ho Chi Minh City
front office staff members. (Action: Embassy Hanoi)

Recommendation 4: Embassy Hanoi should fold the environment, science, technology, and
health section into the economic section. (Action: Embassy Hanoi)

Recommendation 5: Embassy Hanoi, in coordination with the Bureau of East Asian and
Pacific Affairs and the Bureau of Human Resources, should restructure the political-economic
reporting function at Consulate General Ho Chi Minh City, to clarify supervisory relationships
and reporting responsibilities. (Action: Embassy Hanoi, in coordination with EAP and DGHR)

Recommendation 6: Embassy Hanoi should institute joint public affairs strategic planning
sessions and staff exchanges with Consulate General Ho Chi Minh City, using the embassy’s
program-travel-representation matrix in pursuit of Mission Strategic Resource Plan goals.
(Action: Embassy Hanoi).

Recommendation 7: Embassy Hanoi should reorganize Consulate General
Ho Chi Minh City’s public affairs section using Embassy Hanoi’s senior team leadership
structure, and should train section leaders on the embassy’s online leadership training
curriculum. (Action: Embassy Hanoi)

Recommendation 8: Embassy Hanoi should enter the name of each grants officer
representative in the grants management database and supply each grants officer representative
with the required letter outlining the specific responsibilities for managing
grants. (Action: Embassy Hanoi)

Recommendation 9: Embassy Hanoi should explore the feasibility of establishing wireless
Internet access or otherwise maximizing the usability of the Hanoi American Center’s iPads
(Action: Embassy Hanoi)

Recommendation 10: Embassy Hanoi should convert space outside the hardline at the
Ho Chi Minh City American Center into an enclosed area for use by the Education USA staff
when counseling visitors. (Action: Embassy Hanoi)




                                         52
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Bureau of Consular Affairs should monitor Embassy Hanoi’s
consular workload to determine whether five officers, including an FS-02 adoptions officer, are
necessary. (Action: CA)

Recommendation 12: Embassy Hanoi should ask the Bureau of Consular Affairs to update the
reciprocity table for Vietnam, to reflect a maximum 3-month, single-entry validity for B1/B2
visas. (Action: Embassy Hanoi)

Recommendation 13: Embassy Hanoi should revise work requirements so the consular section
chief in Hanoi is rated by the consular coordinator and reviewed by the deputy chief of mission.
(Action: Embassy Hanoi)

Recommendation 14: Embassy Hanoi, in coordination with the Bureau of Consular Affairs
and the Bureau of Human Resources, should request a review of the consular chief position at
Consulate General Ho Chi Minh City to determine whether the position should be upgraded.
(Action: Embassy Hanoi, in coordination with CA and DGHR)

Recommendation 15: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Hanoi, should review construction plans to determine whether access to the consular
section in Consulate General Ho Chi Minh City could be better controlled by modifying the
current structure, and include such modifications in the scope of work for the approved
rehabilitation of the consular section. (Action: OBO, in coordination with Embassy Hanoi)

Recommendation 16: Embassy Hanoi should establish a warden system for Consulate General
Ho Chi Minh City. (Action: Embassy Hanoi)

Recommendation 17: Embassy Hanoi should not allow mission employees to use any method
other than Class A and Class B referrals to provide information on nonimmigrant visa applicants.
(Action: Embassy Hanoi)

Recommendation 18: Embassy Hanoi should reissue its visa referral policy, under the
Ambassador’s signature, and provide training for all staff at Consulate General
Ho Chi Minh City on the requirements and process for making visa referrals. (Action: Embassy
Hanoi)

Recommendation 19: Embassy Hanoi should require the consular coordinator at Consulate
General Ho Chi Minh City to give the Ambassador a monthly report on all Class A and B
referrals in both Hanoi and Ho Chi Minh City, indicating who made the referral and including
information on any instances of visa-related information being relayed outside the referral
system. (Action: Embassy Hanoi)

Recommendation 20: Embassy Hanoi should revise Consulate General Ho Chi Minh City’s
petition return policy, to require managers to review all memoranda requesting revocation of a
petition before sending the memoranda to the National Visa Center. (Action: Embassy Hanoi)

Recommendation 21: The Foreign Service Institute, in coordination with the Bureau of
Consular Affairs, should revise the Vietnamese language training curriculum to reflect the

                                         53
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

professional requirements of consular officers in conducting visa interviews.
(Action: FSI, in coordination with CA)

Recommendation 22: The Bureau of Overseas Buildings Operations should retain the
American club property until a new site for the new embassy compound has been acquired.
(Action: OBO)

Recommendation 23: The Bureau of Administration, in coordination with Embassy Hanoi, the
Bureau of Overseas Buildings Operations and the Bureau of Diplomatic Security, should take
immediate action to minimize the U.S. Government’s loss associated with the roof replacement
contract for the chief of mission residence. (Action: A, in coordination with Embassy Hanoi,
OBO and DS)

Recommendation 24: Embassy Hanoi, in coordination with the Bureau of East Asian and
Pacific Affairs, should assess the damages to the residence at property number 2001, bill the
former occupant for repair costs, and confirm that payment has been received. (Action: Embassy
Hanoi, in coordination with EAP)

Recommendation 25: The Bureau of Overseas Buildings Operations should not pursue a
public–private partnership or dispose of either the Le Quay Don or Ba Huyen Thanh Quan
properties in Ho Chi Minh City until a site for the new embassy compound in Hanoi has been
acquired. (Action: OBO)

Recommendation 26: Embassy Hanoi should implement standard operating procedures for
maintaining complete contract files and properly preparing and managing blanket purchase
agreements. (Action: Embassy Hanoi)

Recommendation 27: Embassy Hanoi should prepare a proper procurement instrument for
Consulate General Ho Chi Minh City’s packing and shipping requirements.
(Action: Embassy Hanoi)

Recommendation 28: Embassy Hanoi should compete and award a contract with a travel
management center for its mission-wide travel requirements. (Action: Embassy Hanoi)

Recommendation 29: Embassy Hanoi should require supervisors to properly counsel and
mentor entry-level officers and submit their performance evaluations on time.
(Action: Embassy Hanoi)

Recommendation 30: Embassy Hanoi should include a work requirement for all supervisors
of American and local employees, to complete their employees’ work requirements and
performance evaluation reviews on time; and it should rate the supervisors accordingly.
(Action: Embassy Hanoi)

Recommendation 31: Embassy Hanoi should establish a comprehensive, mission-wide
training plan, and allocate specific resources for training. (Action: Embassy Hanoi)

Recommendation 32: Embassy Hanoi should submit the embassy’s and consulate general’s
retail price surveys and living pattern questionnaires to the Department as soon as possible, and
                                          54
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

establish standard operating procedures for the timely submission of all future submissions.
(Action: Embassy Hanoi).

Recommendation 33: Embassy Hanoi, in coordination with the Bureau of East Asian and
Pacific Affairs and the Bureau of Human Resources, should determine whether the residence
manager position should be a local direct-hire position or a contract employee working directly
for the Ambassador as a member of the official residence staff. (Action: Embassy Hanoi, in
coordination with EAP and DGHR)

Recommendation 34: (b)(5)(b)(6)




Recommendation 35: Embassy Hanoi should not use excess year-end funds to purchase wine
that is not needed in the current fiscal year. (Action: Embassy Hanoi)

Recommendation 36: Embassy Hanoi should enforce the requirement that the Chief of
Mission, deputy chief of mission, and consul general submit their official residence expense
payments monthly. (Action: Embassy Hanoi)

Recommendation 37: Embassy Hanoi should coordinate all submissions of Embassy Hanoi’s
and Consulate General Ho Chi Minh City’s post differential questionnaires, to ensure that
relative differences in hardship at both posts are accurately reflected. (Action: Embassy Hanoi)

Recommendation 38: Embassy Hanoi should establish work space for information
management staff in the Rose Garden annex. (Action: Embassy Hanoi)

Recommendation 39: Embassy Hanoi, in coordination with the Bureau of East Asian and
Pacific Affairs and the Bureau of Information Resource Management, should review information
management assets mission-wide, to resolve information management understaffing.
(Action: Embassy Hanoi, in coordination with EAP and IRM)

Recommendation 40: Embassy Hanoi should conduct an inventory of its dedicated Internet
networks and consolidate the networks, where possible. (Action: Embassy Hanoi)

Recommendation 41: Embassy Hanoi should include representatives from different sections
in the local information technology change control board. (Action: Embassy Hanoi)

Recommendation 42: (b) (5)




Recommendation 43: (b) (5)




                                         55
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 44: (b) (5)



Recommendation 45: Embassy Hanoi should provide a separate cash advance and a separate
safe drawer with a separate combination for the backup consular cashier in Consulate General
Ho Chi Minh City. (Action: Embassy Hanoi)




                                        56
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not be
subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

Informal Recommendation 1: Embassy Hanoi should require the public affairs assistant’s
supervisor to conduct regular performance review counseling sessions and document at least one
of those sessions on form DS 1974.

Informal Recommendation 2: Embassy Hanoi should use the arrival of the third public affairs
officer in Consulate General Ho Chi Minh City as an opportunity to assess whether an additional
local employee is needed in the consulate general’s public affairs section.

Informal Recommendation 3: Embassy Hanoi should update Consulate General
Ho Chi Minh City’s English and Vietnamese Web sites, evaluate the technical skills of the
consulate general’s public affairs staff, and provide appropriate training in Web site development
and maintenance.

Informal Recommendation 4: Embassy Hanoi should conduct a cost-benefit analysis
regarding the viability of constructing private office space in which American Center employees
can securely access their OpenNet accounts.

Informal Recommendation 5: Embassy Hanoi should increase communication and staff
exchanges between the American Centers in Hanoi and Ho Chi Minh City.

Informal Recommendation 6: Embassy Hanoi should implement and enforce a policy that
nonimmigrant visa applicants be admitted only at the time of their appointment at Consulate
General Ho Chi Minh City.

Informal Recommendation 7: Embassy Hanoi should set up an email box at the consular
correspondence unit in Consulate General Ho Chi Minh City for consulate general personnel to
use for all visa-related correspondence.

Informal Recommendation 8: Embassy Hanoi should implement and enforce a policy that
immigrant visa applicants be admitted only at the time of their appointment at Consulate General
Ho Chi Minh City.

Informal Recommendation 9: Embassy Hanoi should revise the immigrant visa interview
schedule at Consulate General Ho Chi Minh City, from 5 days per week to 4 days per week.

Informal Recommendation 10: Embassy Hanoi should improve the Consulate General
Ho Chi Minh City Web site, ask the National Visa Center to link to the Web site, and pursue
other outreach opportunities to educate the public about the immigrant visa application process.


                                         57
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: Embassy Hanoi should hold regular adjudication meetings at a
time other than during lunch in the immigrant visa unit at Consulate General Ho Chi Minh City.

Informal Recommendation 12: Embassy Hanoi should require that the Consulate General
Ho Chi Minh City immigrant visa managers spend at least 1 hour per week, and the consular
chief some time each month, adjudicating immigrant visa cases.

Informal Recommendation 13: Embassy Hanoi should capture photographs for Consulate
General Ho Chi Minh City at the time files are received from the National Visa Center.

Informal Recommendation 14: Embassy Hanoi should revise Consulate General
Ho Chi Minh City’s intake procedures, so the same person checks documents and enters data.

Informal Recommendation 15: Embassy Hanoi should close the information window at
Consulate General Ho Chi Minh City, except for a limited amount of time for applicants to drop
off passports for nonimmigrant visa renewals.

Informal Recommendation 16: Embassy Hanoi should implement procedures for employees
to sign residential inventories within 30 days of their occupying assigned residences.

Informal Recommendation 17: Embassy Hanoi should implement procedures for the
information resource management and health units to inventory their property and make note of
their respective inventories on the property management report.

Informal Recommendation 18: Embassy Hanoi should require Consulate General
Ho Chi Minh City to properly organize its expendable property warehouse and cease using
manual stock control cards.

Informal Recommendation 19: Embassy Hanoi should revise the position descriptions for the
Consulate General Ho Chi Minh City warehousemen to include driving duties, and fill the
warehouse unit’s vacancies with individuals who are licensed to drive trucks.

Informal Recommendation 20: Embassy Hanoi should require Consulate General
Ho Chi Minh City to consolidate the facility management’s office materials and supplies, store
them in the expendable property warehouse, and properly control them.

Informal Recommendation 21: Embassy Hanoi should instruct members of the awards
committee to carefully examine patterns of repetitive awards, to maintain the integrity of the
awards program.

Informal Recommendation 22: Embassy Hanoi should advise the locally employed staff
associations in both Embassy Hanoi and Consulate General Ho Chi Minh City on establishing
appropriate guidelines and procedures for cash management, logo item sales, and other fund
raising activities.

Informal Recommendation 23: Embassy Hanoi should network all printers for the embassy’s
offices.


                                          58
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 24: Embassy Hanoi should require the entire mission’s
information management staff to complete Global Information Technology Modernization
program training.

Informal Recommendation 25: Embassy Hanoi should require all sections to clear any
requests for computer equipment with the information management officer.

Informal Recommendation 26: Embassy Hanoi should require Consulate
General Ho Chi Minh City to monitor, verify, and update links in a timely manner.

Informal Recommendation 27: Embassy Hanoi should request a visit by an appropriate
official of the Bureau of Administration’s Office of Commissary and Recreation Affairs, to
advise the new American Club manager and association board on stabilizing association
operations.

Informal Recommendation 28: (b) (5)




                                         59
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                                  Name         Arrival Date
Ambassador                                                      David Shear       08/11
Deputy Chief of Mission                                    Claire Pierangelo      07/11
Consul General Ho Chi Minh City                                    An T. Le       08/10
Chiefs of Sections (Hanoi):
  Administrative                                           Raymond Kengott        08/11
  Consular                                                  Deborah Fairman       07/11*
  Political                                                 Harry R. Kamian       08/09
  Economic                                                Jessica M. Webster      07/10
  Public Affairs                                      Christopher W. Hodges       09/10
  Regional Security                                            Michael Brenn      09/11
Other Agencies:
  Centers for Disease Control and Prevention               Bruce Struminger       07/09
  Department of Commerce                                        Sarah Kemp        08/11
  Department of Defense                                     Patrick Reardon       01/09
  Department of Homeland Security                                Sene Tchen       12/09
  Department of Treasury                                   George Mullinax        10/08
  Drug Enforcement Administration                           Scott Sutherland      01/09
  Foreign Agricultural Service                                Jeanne Bailey       09/09
  U.S. Agency for International Development                  Frank Donovan        11/08
*07/11 as section chief; arrived at Embassy Hanoi 08/09




                                        60
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors

DCM             Deputy chief of mission

Department      U.S. Department of State

EAP             Bureau of East Asian and Pacific Affairs

ICASS           International Cooperative Administrative Support Services

IM              Information management

MRR             Mission Resource Request

MSRP            Mission Strategic and Resource Plan

OBO             Bureau of Overseas Buildings Operations

OIG             Office of Inspector General

PAO             Public affairs officer

PAS             Public affairs section

PEPFAR          President’s Emergency Program for AIDS Relief

USAID           U.S. Agency for International Development




                            61
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
